<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                         TUESDAY, APRIL 8, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:15 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Gregg, Craig, Byrd, Harkin, 
Kohl, and Murray.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF HON. MICHAEL BROWN, UNDER SECRETARY, 
            EMERGENCY PREPAREDNESS AND RESPONSE 
            DIRECTORATE


               OPENING STATEMENT OF SENATOR THAD COCHRAN


    Senator Cochran. The hearing will please come to order.
    The subject of today's hearing is the fiscal year 2004 
budget request for the Emergency Preparedness and Response 
Directorate of the Department of Homeland Security.
    We appreciate the attendance of Under Secretary Michael 
Brown. We thank you for your attendance today and welcome you 
and those who have accompanied you to this hearing.
    The President's budget request for Emergency Preparedness 
and Response totals $5.96 billion. We have a copy of the 
statement you have prepared for the committee, which we will 
make a part of the record in full. And we will invite you to 
make any explanation of the budget request which you think 
would be helpful to the committee as we review this request for 
appropriations.
    But before proceeding, I want to recognize my good friend, 
the distinguished Senator from West Virginia and the ranking 
Democrat on the committee, for any opening statement that he 
would wish to make.
    Senator Byrd.


                    STATEMENT OF SENATOR ROBERT BYRD


    Senator Byrd. Well, thank you, Mr. Chairman. This is the 
first witness to testify before the recently established 
Homeland Security Subcommittee of the Senate Appropriations 
Committee, the subcommittee that is tasked with making careful 
choices about how best to take care of our Nation. Is this 
working?
    We have been able to send a person to the moon and bring 
him back safely again, but we have never been able to perfect a 
good public address system.
    So this subcommittee has to find the proper balance. How do 
we make America safe without fundamentally changing the quality 
of a free society? How do we protect ourselves from a threat 
within our borders, while protecting our privacy rights, and 
our freedom to move about this great country? How do we invest 
the resources and organize our efforts to catch terrorists 
without throwing out The Constitution? How do we make sure that 
the agencies that have been merged into the new Department of 
Homeland Security and that have specific missions unrelated to 
homeland security, such as preventing and responding to natural 
disasters, have the resources to effectively accomplish those 
missions?
    Over the last 10 years, the Federal Emergency Management 
Agency has earned the reputation as the Federal agency that 
extends help to Americans in their darkest hour. Time and 
again, when Americans have been struck by hurricanes, when West 
Virginians have been struck by floods, and when Americans have 
been struck by earthquakes, FEMA has been the Federal agency 
that was the firm shoulder that disaster victims could lean on.
    That is not to say that FEMA's response has always been 
without problems, but in recent years, FEMA has been organized 
as, and has been very adept at, helping the victims of national 
emergencies. I know a good many families and communities in 
West Virginia who look at FEMA and wonder where they would be, 
how they might have survived, without the aid of FEMA.
    In your testimony today, please explain to the subcommittee 
what you expect the impact will be of the merger of FEMA into 
the Department of Homeland Security. Under the umbrella of the 
new Department of Homeland Security, with so much emphasis on 
homeland security, can the recently created Emergency 
Preparedness and Response Directorate continue to provide the 
victims of natural disasters with the same kind of rapid and 
organized assistance?
    FEMA was formed in 1979 by merging into one agency five 
agencies from existing Federal departments. And it took 15 
years for FEMA to work through organizational glitches and 
internal bickering at times. I have been on this committee 
since FEMA was created, and I do not want to see this very 
important agency go through more growing pains.
    While learning to prepare for and to respond to all 
hazards, the Emergency Preparedness and Response Directorate 
must not lose its capacity to respond effectively to natural 
disasters.
    Now, the Homeland Security Act places new responsibilities 
on your agency, including program transfers from the FBI--it is 
that broccoli I had for lunch. Gives you trouble. Does it give 
you trouble?
    Mr. Brown. Not too often, Senator.
    Senator Byrd. The Homeland Security Act places new 
responsibilities on your agency, including program transfers 
from the FBI, health and human services, and the commerce 
department. It is this subcommittee's job to ensure that you 
have adequate resources to maintain your past level of activity 
and to take on these new responsibilities.
    I hope that in your testimony today, you will address 
whether the President's budget provides the resources to 
address these new responsibilities without undermining your 
missions related to responding and preventing natural 
disasters. I will look forward to your testimony.
    Senator Cochran. Thank you very much, Senator. Senator 
Gregg.
    Senator Gregg. Mr. Chairman, I will look forward to hearing 
the witness.
    Senator Cochran. Mr. Secretary, you may proceed.


                       STATEMENT OF MICHAEL BROWN


    Mr. Brown. Thank you, Senator. Good afternoon, Mr. 
Chairman, Senator Byrd, Senator Gregg. It is certainly my 
pleasure to be here.
    I am Michael Brown, the Under Secretary for the Emergency 
Preparedness and Response Directorate (EP&R) of the Department 
of Homeland Security. On March 1 of this year, the Federal 
Emergency Management Agency (FEMA) became part of the 
Department of Homeland Security. We at FEMA are honored and 
excited to be a part of this DHS mission to prepare and protect 
our Nation.
    However, I want to assure the members of this subcommittee 
that FEMA will not lose sight of its responsibility to help 
people and communities affected by natural disasters. During my 
tenure at FEMA, I have developed an acute appreciation for its 
all-hazards mission.
    To underscore that point, it is useful to examine our 
mission statement. The mission statement of the Emergency 
Preparedness and Response Directorate is to lead the Nation to 
prepare for, mitigate the effects of, respond to, and recover 
from major domestic disasters, both natural and manmade, 
including incidents of terrorism. It still contains the core 
responsibilities that guided FEMA as an independent agency.
    Since March 1 and the standing up of the Department of 
Homeland Security, we have responded to disasters caused by 
snowstorms, ice storms, flooding and the Columbia Space Shuttle 
disaster.
    We have not changed how we respond. The core competencies 
of my dedicated staff have not changed, nor have the experience 
and expertise that they bring to the table.
    We embrace our new homeland security responsibilities. 
Those responsibilities will be folded into our long-standing, 
well-tested organization and will not replace it.
    As we moved into the Department of Homeland Security, I 
ordered an internal reorganization of the directorate. We look 
forward to submitting those changes to you once we have 
completed our realignment.
    FEMA will be divided into four disciplines: preparedness, 
mitigation, response and recovery. This reorganization reflects 
the traditional areas of emergency management. It also 
resembles the organizational flow used by many States who must 
continue to be our partners in incident management.
    The changes that FEMA has undergone, both external and 
internal, have not changed its focus. And as part of DHS, we 
will continue FEMA's tradition to be there whenever disaster 
strikes, whatever its nature.
    The Emergency Preparedness and Response Directorate faces 
serious challenges in achieving this mission. Chief among those 
challenges is increased risk. America's metropolitan areas 
continue to grow in size and density, with many of the largest 
situated in coastal regions, along earthquake faults, or in 
other high-risk areas. Commercial and residential development 
have progressed at a rapid pace across the Nation, expanding 
into previously unsettled or sparsely populated areas, and 
exposing growing communities to new risks, especially wildfire, 
flooding, and erosion.
    To address these growing risks, EP&R will act accordingly. 
We are working to consolidate the multiple Federal response 
plans into a single national response plan governing our 
emergency activities across all levels of Government.
    We are augmenting and maintaining the Nation's 
pharmaceutical and vaccine stockpiles and strengthening their 
future capacity to ensure adequate supplies in the event of a 
national emergency.
    We are committing ourselves to recruiting, training and 
retaining a top-notch workforce and developing a staff with the 
talent, skills, competencies and dedication necessary to meet 
the demands of the future.
    We are working to further develop State, local and 
volunteer readiness strategies through planning, mitigation, 
preparedness, response and recovery activities.
    Finally, we are providing critical information to the 
public, the media and the emergency management community by 
maintaining public information programs and by building 
partnerships with and among Government entities, other 
responder organizations and the private sector.
    Toward these goals, the President's Budget for Fiscal Year 
2004 requests resources to address these areas. Approximately 
$900 million is proposed for Project BioShield for a new 
permanent authority that would allow the Government to secure 
medical countermeasures to strengthen the Nation's preparedness 
against bioterror attacks.
    There is $400 million to be spent to augment and maintain 
the Strategic National Stockpile of drugs and vaccines in order 
to expand and strengthen America's capability to respond to a 
bioterrorism threat.
    $300 million is proposed to continue the pre-disaster 
hazard mitigation program, ensuring that the most worthwhile 
and cost-effective mitigation programs are funded.
    $200 million is proposed to correct, update and digitally 
distribute the Nation's flood insurance rate maps, identifying 
areas at risk. These maps will guide future development and 
flood mitigation efforts.
    Finally, $1.9 billion will provide disaster relief under 
those primary assistance programs that provide a significant 
portion of the total Federal response to victims in 
presidentially declared major disasters and emergencies.
    These programs reflect FEMA's commitment to performing its 
mission of leading America to prepare for, mitigate the effects 
of, respond to and recover from disasters, both natural and 
manmade, including those acts of terrorism. Successfully 
implementing these missions is key to our Nation's well-being.
    Finally, one of the strategies the Department of Homeland 
Security will employ to implement its broad agenda is the 
consolidation of the Department's grant processes within a 
single directorate to allow its State and local partners one-
stop shopping for all homeland security needs.
    The President's Budget consolidates grants for first 
responders in the Office for Domestic Preparedness (ODP) within 
the Border and Transportation Security Directorate. The 
assistance to firefighters, State and local all-hazards 
emergency operations planning, interoperable communications 
equipment and Emergency Management Performance Grants all move 
from FEMA to ODP.
    Because of the proposed transfer of these grant programs, 
those resources are now shown in the Border and Transportation 
Security/ODP budget instead of the FEMA budget.
    In closing, I would like to thank the members of this 
subcommittee for the opportunity to speak about some of our 
successes over the last year, and our challenges ahead in the 
fiscal year 2004 budget.

                           PREPARED STATEMENT

    FEMA joins DHS with great faith that we now have an entire 
department helping us secure the Nation against all hazards, 
whether natural or manmade. We will do our part by responding 
to disasters wherever they strike and whatever causes them. And 
with that, Mr. Chairman, I am happy to answer any questions.
    [The statement follows:]

                  Prepared Statement of Michael Brown

                              INTRODUCTION

    Good afternoon, Chairman Cochran and Members of the Subcommittee. I 
am Michael Brown, Under Secretary for the Emergency Preparedness and 
Response Directorate (EP&R) of the Department of Homeland Security.
    On March 1 of this year, the Federal Emergency Management Agency, 
FEMA, became part of the Emergency Preparedness and Response 
Directorate of the Department of Homeland Security (DHS). We are proud 
to join the new Department and are determined to do our part to help 
Secretary Ridge and the Department succeed. I want to assure the 
Members of this Subcommittee that EP&R will not lose sight of its 
responsibility to help people and communities affected by disasters. I 
served as the General Counsel of FEMA when I first arrived in 
Washington, D.C. and, at the time of the creation of DHS, as the Deputy 
Director. Given that experience, I have an acute appreciation for 
EP&R's mission and its important role in the Department. To underscore 
that point, it is useful to examine our mission statement. The mission 
statement of EP&R,

    To lead the Nation to prepare for, mitigate the effects of, respond 
to, and recover from major domestic disasters, both natural and 
manmade, including incidents of terrorism still contains the same core 
responsibilities that guided FEMA as an independent agency. Since March 
1, DHS/EP&R has responded to disasters caused by snowstorms, ice storms 
and flooding. We have not changed how we respond.

    As we moved into DHS, I ordered an internal reorganization of EP&R. 
We look forward to submitting those changes to you once we have 
completed our realignment. EP&R will be divided into four disciplines--
preparedness, mitigation, response and recovery. This reorganization 
reflects the traditional areas of emergency management. It also 
resembles the organizational flow used by many States, who continue to 
be our partners in emergency management.
    The changes FEMA has undergone--both external and internal--have 
not changed our focus. As part of DHS, EP&R will continue FEMA's 
tradition to be there whenever disasters strike.

                    FISCAL YEAR 2002 ACCOMPLISHMENTS

    During fiscal year 2002, the Federal Emergency Management Agency 
(FEMA) expended nearly $3.9 billion in disaster funds to aid people and 
communities overwhelmed by disasters, which included earthquakes, 
floods, ice and winter storms, fires, hurricanes, tornadoes, and 
tropical storms. FEMA responded to 42 major disasters involving 28 
States and 4 U.S. Territories.
    FEMA also provided assistance for a near-record 83 fire events that 
affected 18 States, with the western part of the Nation experiencing 
one of the worst fire seasons in U.S. history. In fiscal year 2002, 
FEMA received $360 million in Assistance to Firefighter Grants for 
equipment, safety and prevention programs and vehicles. We received 
$745 million for that purpose in fiscal year 2003. Late in fiscal year 
2002, FEMA was appropriated $225 million to distribute to States in 
fiscal year 2003 to modernize their emergency operations centers, 
update their emergency response plans, and improve their emergency 
preparedness.
    In addition to the numerous disasters that struck in fiscal year 
2002, FEMA continued its full support to the City and State of New York 
in their recovery efforts from the terrorist attacks of September 11, 
2001. This includes distributing the $9 billion allotted by President 
Bush and Congress.

                               CHALLENGES

    The Emergency Preparedness and Response Directorate faces serious 
challenges in achieving its mission. Chief among those challenges is 
increased risk. America's metropolitan areas continue to grow in size 
and density, with many of the largest situated in coastal regions, 
along earthquake faults, or in other high-risk areas. Commercial and 
residential development have progressed at a rapid pace across the 
Nation, expanding into previously unsettled or sparsely settled areas, 
and exposing growing communities to new risks, especially wildfire, 
flooding and erosion. To address these growing risks, EP&R will 
continue to emphasize pre-disaster mitigation and insurance.
    The risks associated with acts of terrorism also pose a significant 
challenge for EP&R. FEMA's rapid and decisive response to the events of 
September 11 demonstrated the Agency's role in consequence management. 
As a result, the Nation is looking to the emergency management 
community--and EP&R in particular--to meet this challenge. Creating a 
single, all-incident management plan from the multiple Federal response 
plans currently operating is an important step in ensuring EP&R meets 
the challenge. Maintaining the Nation's pharmaceutical and vaccine 
stockpiles, and strengthening their future capacity to ensure adequate 
supplies in the event of a national emergency are additional activities 
we will undertake.
    EP&R also faces serious challenges in maintaining and developing 
its workforce. Within the next 5 years, 48 percent of the EP&R 
workforce is projected to become eligible for retirement. Given this, 
EP&R has committed itself to recruiting, training, and retaining a top-
notch workforce and developing a staff with the talent, skills, 
competencies, and dedication necessary to meet the demands of the 
future.
    Meeting multiple demands with limited resources, a problem familiar 
to all Federal agencies, is another obstacle EP&R will have to overcome 
to achieve its mission of protecting the lives and property of the 
American people.

                               ACTIVITIES

    Specific mission activities include:
  --Improving the Nation's disaster response capabilities and those of 
        State and local governments by developing and maintaining an 
        integrated, nationwide operational capability to respond to and 
        recover from disasters and emergencies, regardless of their 
        cause, in partnership with other Federal agencies, State and 
        local governments, volunteer organizations, and the private 
        sector.
  --Assisting all levels of government, first responders, volunteer 
        groups, and the public in meeting the responsibilities of 
        domestic emergencies and challenges, especially incidents that 
        are fire-related or chemical/biological in nature through 
        planning, mitigation, preparedness, response, and recovery 
        activities.
  --Using risk management strategies to reduce and eliminate the long-
        term risk to life and property from natural and technological 
        hazards such as floods, earthquakes, hurricanes, and dam 
        failures.
  --Ensuring the adequacy of the Nation's pharmaceutical and vaccine 
        stockpiles and other medical supplies that can be delivered to 
        emergency sites in 12 hours.
  --Providing critical information to the public, the media, and the 
        emergency management community by maintaining public 
        information programs and by building partnerships with and 
        among government entities, other responder organizations, and 
        the private sector.

                            2004 HIGHLIGHTS

    The President's Budget for 2004 includes several areas of emphasis:
  --$890 million is proposed for a new, permanent authority that would 
        allow the Government to secure medical countermeasures to 
        strengthen the Nation's preparedness against bioterror attacks.
  --$400 million would be spent to maintain the Strategic National 
        Stockpile of drugs and vaccines in order to expand and 
        strengthen America's capability to respond to a bioterrorism 
        threat.
  --$300 million is proposed to continue the pre-disaster hazard 
        mitigation program to ensure that the most worthwhile and cost-
        effective mitigation programs are funded.
  --$200 million is proposed to correct, update, and digitally 
        distribute the Nation's flood insurance rate maps, to 
        identifying areas at risk. The maps will guide future 
        development and flood mitigation efforts.
  --$1.9 billion will provide disaster relief under the primary 
        assistance programs that provide a significant portion of the 
        total Federal response to victims in presidentially declared 
        major disasters and emergencies.
    EP&R's 2004 programs reflect its commitment to performing its 
mission of leading America to prepare for, mitigate the effects of, 
respond to, and recover from disasters, both natural and manmade, 
including incidents of terrorism. Successfully implementing the EP&R 
missions is key to our Nation's well being.

                              PREPAREDNESS

    The mission and overriding objective of the Preparedness Division 
is to help the Nation better prepare to respond to emergencies and 
disasters of all kinds, including those resulting from acts of 
terrorism and involving weapons of mass destruction (WMD).
    The fiscal year 2004 budget request for the Preparedness Division 
is contained in our $1.652 billion operating expense account. 
Preparedness priorities include:
  --Strengthening the ability of State and local emergency managers and 
        responders to prepare for and respond to all hazards, including 
        terrorist attacks;
  --Building and sustaining a national preparedness and response 
        capability.
    The Preparedness Division is responsible for Federal, State, local, 
and community preparedness programs; assessments and exercises; the 
Radiological Emergency Preparedness program and the Chemical Stockpile 
Emergency Preparedness Program; and emergency management and first 
responder grants administration.
    The Preparedness Division also includes the U.S. Fire 
Administration, whose mission is to reduce life and economic losses due 
to fire and related emergencies. Fire death rates in the United States 
are among the highest in the industrialized world, but many of these 
deaths are preventable. The U.S. Fire Administration works to prevent 
these deaths and the damage to property through leadership, advocacy, 
coordination and support. The training programs offered at the National 
Fire Academy and the Emergency Management Institute to promote the 
professional development of command level firefighters, emergency 
managers and emergency responders are an important aspect of the U.S. 
Fire Administration's duties.
    Another training program in the Preparedness Division is the Noble 
Training Center located at Ft. McClellan, Alabama. Noble Training 
Center is the only hospital facility in the U.S. devoted entirely to 
medical training for WMD. The Noble Training Center trains medical 
personnel for State and local hospitals, emergency medical services, 
the National Disaster Medical System and the Metropolitan Medical 
Response System.
    The Preparedness Division will provide the expertise to develop the 
National Incident Management System (NIMS) and the National Response 
Plan (NRP). The objective of both of these tasks is to ensure that all 
levels of government across the Nation work efficiently and effectively 
together, using a national approach to domestic incident management.
    NIMS will provide a consistent nationwide approach for Federal, 
State, and local governments to work effectively and efficiently 
together to prepare for, respond to, and recover from all domestic 
incidents. To provide for interoperability and compatibility among 
Federal, State, and local capabilities, the NIMS will include a core 
set of concepts, principles, terminology, and technologies covering the 
incident command system; multi-agency coordination systems; unified 
command; training; identification and management of resources 
(including systems for classifying types of resources); qualifications 
and certification; and the collection, tracking, and reporting of 
incident information and incident resources.
    The Preparedness Division will continue to provide the States with 
technical assistance in their all hazards planning. As part of our 
effort to prepare our citizens for all disasters, the Division will 
oversee the Community Emergency Response Teams, or CERT. This program, 
begun as a civilian training program by the Los Angeles Fire 
Department, has become a nationwide effort to train citizens in first 
aid and basic firefighting and emergency response techniques. CERT 
trained citizens are able to provide those basic emergency services 
that would otherwise occupy the first responders. EP&R provides train-
the-trainer programs to allow as many citizens as possible to receive 
this training across the country. Currently, over 200,000 citizens have 
received CERT training; our goal is to train 400,000 citizens by the 
end of 2003.
    Preparedness is also responsible for the Metropolitan Medical 
Response System (MMRS). The MMRS consists of 120 teams of medical 
responders located in major metropolitan areas. The primary focus of 
the MMRS program is to develop or enhance existing emergency 
preparedness systems to effectively respond to a public health crisis, 
especially a WMD event. Through preparation and coordination, the local 
law enforcement, fire, hazmat, EMS, hospital, public health, and other 
``first response'' personnel are better able to effectively respond in 
the first 48 hours of a public health crisis.

                               MITIGATION

    Our mitigation efforts are an essential cornerstone of the 
Department of Homeland Security's resolve to protect the lives and 
property of Americans from the ravages of disasters. Mitigation 
programs provide us the opportunity not only to develop plans to reduce 
risks, but to actually implement those plans before a disaster occurs.
    In fiscal year 2003, Congress supported the President's efforts to 
promote disaster mitigation by creating and funding two initiatives: 
pre-disaster mitigation grants and flood map modernization. We are 
moving quickly to implement both of these important initiatives.
    The Pre-Disaster Mitigation program supports the goals of disaster 
mitigation partnerships. The competitive nature of this funding source 
encourages communities to assess their risks, evaluate their 
vulnerabilities and incorporate an action plan into the ongoing 
planning processes.
    As an annual grant program, the Pre-Disaster Mitigation program 
gives States and communities the opportunity to develop plans to reduce 
risks. States will no longer need a presidentially declared disaster 
before they can receive mitigation funding to reduce their most 
significant risks. Mitigation of the most hazardous risks should be a 
regular investment priority, and not contingent upon a disaster 
declaration.
    This competitive program will help ensure that the most worthwhile 
and most cost-effective projects are funded. The goal is to fund 
activities that will reduce the risks of future damage in hazard-prone 
areas, thereby reducing the need for future disaster assistance.
    The States play an essential role in the implementation of all of 
our mitigation programs, and they will be prominent in the pre-disaster 
mitigation program.
    With respect to the pre-disaster mitigation grants, we have already 
announced the availability of funds for pre-disaster mitigation 
planning grants based on the fiscal year 2003 appropriation. The 
application deadline for these grants is April 30, 2003, and we will 
award these grants to the approved States and territories soon 
thereafter.
    The fiscal year 2004 budget proposal includes $300 million: an 
appropriation request of $280 million for the Pre-Disaster Mitigation 
program coupled with $20 million transferred from the National Flood 
Insurance Fund for flood mitigation grants.
    The fiscal year 2004 request also includes $200 million for the 
Flood Map Modernization Program which is also well underway. Flood maps 
have been produced for over 19,000 communities. Communities, lenders, 
insurance agents and others use the maps and the flood data 
approximately 20 million times a year to make critical decisions on 
land development, community redevelopment, insurance coverage, and 
insurance premiums.
    Now, however, more than two-thirds of the maps are more than 10 
years old. Many do not accurately reflect the change in flood risk due 
to increased development over the years. Nearly all of the maps have 
out-dated streets that make it difficult to precisely determine if a 
property is located in a floodplain. Of additional concern is that the 
vast majority of the existing maps are not compatible with today's 
Geographic Information System (GIS) technology. This further 
complicates communities' efforts to implement mitigation strategies 
through building code and planning and zoning enforcement.
    We will continue implementing a two-pronged approach, begun in 
fiscal year 2003, for updating the Nation's flood hazard data. With 
buy-in from our State and local partners, we are focusing first on 
high-risk areas. This will best serve our mission to reduce losses of 
life and property. In addition, to take advantage of economies of scale 
in these areas, we are emphasizing basin wide studies, where they are 
feasible and cost effective. Secondly, we plan to capitalize on areas 
that have existing data that can be quickly and efficiently converted 
to up-to-date flood studies supporting the National Flood Insurance 
Program (NFIP). This approach provides a framework for prioritizing 
projects and is scalable to accommodate available funding in fiscal 
year 2004 and subsequent years.
    One reason the NFIP flood hazard data is out of date is the lack of 
ownership at the State and local levels. Our strategy for map 
modernization seeks to change this pattern. We will engage in 
partnerships and establish a process that enables State, regional, and 
local entities to manage their flood hazard data. Many local 
governments already implement the floodplain management standards of 
the NFIP. So, where the interest and capability exist, hazard 
identification activities should also be accomplished locally. We will 
provide flood hazard identification training and technical assistance 
to those interested in flood hazard identification. This training will 
increase the capability of States, regional planning commissions, flood 
control districts, and local governments to produce and maintain flood 
hazard studies. The end result will be a decentralized system for 
producing data by those most affected by the flood hazard.
    A key component of the flood map modernization initiative is 
improving e-Government processes for flood hazard data creation and 
distribution. Through the Flood Map Modernization Program, we will 
enable easy access and exchange of flood hazard data through the 
Internet. This system will provide tools allowing the effective use of 
information for making decisions that reduce vulnerability to flood 
risk.
    It is critical that the new flood maps be maintained. We will work 
closely with the States and local communities to do so. By moving to a 
web-based distribution system and using technology to adjust the maps, 
we will provide timely, accurate flood risk information to communities 
that wish to make development and redevelopment decisions without the 
risk of increasing flood damages.
    So far, in fiscal year 2003, we have implemented a performance-
based acquisition strategy for modernizing the Nation's flood maps. Our 
``results oriented'' approach leverages the industry's innovations and 
``best business practices'' to deliver new flood maps in the most cost 
effective and timely manner possible. In addition, we are implementing 
an integrated acquisition strategy that will leverage expertise and 
resources with other Federal agencies and our State and local partners.
    Mr. Chairman, I am also happy to report that the National Flood 
Insurance Program, the largest single-line property insurance writer in 
the country, is once again debt-free and stands on solid financial 
ground as we begin a new era in emergency management.
    In June of 2001, Tropical Storm Allison battered the Gulf Coast and 
East Coast States. After the final losses were tallied, Allison had the 
dubious distinction of becoming our first billion-dollar tropical 
storm, and we borrowed $660 million from the U.S. Treasury to pay for 
losses that exceeded our reserves. We have repaid that debt, with 
interest, as of October 2002.
    Approximately 30,000 families, business, and other victims of 
flooding from Allison received payments from the National Flood 
Insurance Program rather than relying on disaster relief. This example 
proves again the value of the flood insurance program, which helps 
America recover from the devastating effects of flood, while minimizing 
the burden on the taxpayer.

                                RESPONSE

    The Response Division coordinates and implements the Federal 
response to presidentially declared disasters. The budget for the 
Response Division is contained in the Operating Expenses account and in 
the Disaster Relief Fund.
    We will continue to improve our disaster response capabilities--and 
those of State and local governments--through the efficient and 
effective delivery of disaster assistance to victims, while also 
reducing costs and ensuring accountability of response assets and 
equipment. The Response Division is charged with developing and 
maintaining an integrated, nationwide operational capability to respond 
to and recover from disasters and emergencies, regardless of their 
cause, in partnership with other Federal agencies, State and local 
governments, volunteer organizations, and the private sector.
    As one of its new initiatives, the Response Division will 
streamline capabilities by merging the Federal interagency response 
plans into one national response plan. The National Response Plan will 
encompass the Federal Response Plan, the National Contingency Plan, the 
Federal Radiological Response Plan and the Interagency Concept of 
Operations Plan.
    We also recognize that disasters, such as an earthquake on the New 
Madrid fault, have the potential of affecting tens of thousands of 
people. While the emergency management community is well-trained to 
handle day-to-day disasters, we are not adequately prepared to handle a 
truly catastrophic event. In order to respond to such events, the 
Response Division will pursue comprehensive, all hazards catastrophic 
planning. The goal is to ensure an integrated Federal, State, local and 
private sector response and an efficient mobilization of resources in 
the event of a catastrophic disaster. The first area of concentration 
will be catastrophic housing.
    As part of the EP&R budget, $400 million is requested to maintain 
the Strategic National Stockpile. The Strategic National Stockpile is 
made up of pharmaceuticals, vaccines and medical supplies housed in 
various areas around the country in case of emergencies. By dispersing 
the assets, we are able to get the necessary supplies to a disaster 
site in 12 hours.
    The Administration is requesting $890 million is requested for a 
new authority to allow the Federal government to purchase vaccines and 
medication for biodefense. EP&R is beginning its work in this arena by 
developing a bio-terrorism response plan, Bio-Watch; participating in 
Metropolitan Washington Council of Governments Bio-terrorism Task 
force; and participating in major bio-terrorism response exercises such 
as TOPOFF 2 and Exercise Silent Night.
    The Response Division will take operational control over three 
separate teams of specialists that can be rapidly mobilized in times of 
disaster: the Domestic Emergency Support Team (DEST) from the Federal 
Bureau of Investigations (FBI); the National Disaster Medical System 
(NDMS) from the Department of Health and Human Services; and the 
Nuclear Incident Response Teams (NIRT) from the Department of Energy.
    DEST provides expert advice, guidance and support to the FBI On-
Scene Commander (OSC) during a WMD incident or credible threat. It is a 
specialized interagency U.S. Government team comprised of crisis and 
consequence management components. The DEST augments the FBI's Joint 
Operations Center (JOC) with tailored expertise, assessment and 
analysis capabilities.
    NDMS is a nationwide medical response system to supplement State 
and local medical resources during disasters and emergencies and to 
provide backup medical support to the Departments of Defense and 
Veterans Affairs medical care systems during an overseas conflict.
    The final new team, the NIRT, was established to provide a 
versatile nuclear and radiological emergency response and management 
capability.

                                RECOVERY

    The disaster relief activities of EP&R are financed primarily from 
the Disaster Relief Fund (DRF) with funding for permanent staff in the 
Operating Expenses appropriation. The 2004 budget request for the DRF 
includes $1.934 billion which will help insure that we meet outstanding 
obligations from previous disasters, and have the funds needed to 
handle events in fiscal year 2004.
    The Recovery Division administers the programs that help States, 
local governments, communities and individuals recover after the 
President has determined supplemental Federal assistance is needed. The 
Individual and Public Assistance programs will remain our primary 
commitment to communities, individuals, and families affected by 
disasters. To provide assistance as quickly as possible, we coordinate 
closely with our regional offices, disaster field offices, other 
Federal agencies, our State partners and voluntary organizations.
    The Individual Assistance Program provides individuals and families 
affected by disasters with a full range of available programs in a 
timely manner. This assistance varies from tangible help such as 
providing funds to repair homes, to the more intangible programs 
providing emotional support through State crisis counseling programs. 
When disaster strikes, individuals and families need immediate 
information and help. Once the President declares a disaster, 
applications for individual assistance are taken and centrally 
processed to get money into the hands of the victims as soon as 
possible, generally within 7 to 10 days. Through timely home 
inspections and nationwide call centers, disaster victims are able to 
obtain the information and assistance needed to recover.
    The Public Assistance Program is the primary means for community 
recovery. This program provides cost-shared grants to States and local 
governments and to certain private non-profit organizations for debris 
removal, emergency protective measures, and repair or replacement of 
damaged facilities, such as roads, buildings, and utility systems. A 
recent example with which you may be familiar was the removal of 
approximately1.8 million tons of debris from the World Trade Center 
attack. This enormous effort was completed both ahead of schedule and 
under budget. Also, we were better able to address the complex transit 
issues in New York City following 9/11 by collaborating with other 
Federal agencies. Specifically, integrating FEMA's programs with those 
of the Federal Transit Administration improved the means in which 
financial assistance was provided to the City.
    In order to promote a more efficient use of Federal and State 
resources, we work with State and local applicants to evaluate damage 
to facilities and estimate the cost to repair them. In addition, we 
encourage communities to include mitigation measures in repairs to 
reduce future damages to facilities. Finally, EP&R encourages States 
with adequate resources to assume a larger role in managing the Public 
Assistance program in their States.
    The Fire Management Assistance Program is another key resource for 
States and local governments to mitigate, manage, and control forest or 
grassland fires to prevent damages that result in a major disaster 
declaration. This past year's drought spawned many fires, and the 
financial assistance we provided through more than 80 fire declarations 
saved millions of dollars in damages to private properties and public 
facilities.
    We take our mission to help communities and citizens recover very 
seriously. We continuously survey our customers and evaluate the 
effectiveness of our Recovery Programs to help communities and disaster 
victims and, at the same time, ensure the proper stewardship of Federal 
taxpayer dollars.

                               CONCLUSION

    In closing, I would like to thank the Members of the Subcommittee 
for the opportunity to speak about some of our successes over the last 
year, our challenges ahead and the fiscal year 2004 budget for the 
Emergency Preparedness and Response Directorate of the Department of 
Homeland Security. We join DHS with great faith that we now have an 
entire department helping us secure the Nation against all hazards, 
both natural and man made. We will do our part by preparing for, 
mitigating against, responding to and recovering from disasters. I 
would now be pleased to answer any questions you may have.

                          DISASTER RELIEF FUND

    Senator Cochran. Thank you very much, Mr. Secretary, for 
summarizing your statement and explaining the highlights of the 
President's budget request for 2004.
    As you know, we just completed action here in the Senate on 
a supplemental appropriations bill. I wonder if you have any 
comments about the sufficiency of the funds that have been 
included in the Senate supplemental appropriations bill in 
helping meet the needs of this directorate for the balance of 
this fiscal year?
    Mr. Brown. Senator, I think that the supplemental goes a 
long way to meeting some of our unmet needs. As you know, when 
the threat advisory level changes and we go to different 
colors, and right now we are in Code Orange, it causes agencies 
like FEMA to go through a checklist of different actions that 
we think are appropriate to take both within the National 
Capital Region and out among our regional directorates across 
the country.
    We do not just summarily go through and implement 
everything that is on that checklist, but only those which we 
think are appropriate. So consequently, our operational budget 
increases dramatically. And I think the increase in the War 
Supplemental from $15 million to $45 million is a very 
significant help to us.
    I will tell you, however, we are still short in the 
Disaster Relief Fund. We would appreciate any help you could 
give us in that area.
    Senator Cochran. Well, in that connection, I recall the 
other day when you came by my office, which I appreciated very 
much that we talked about how it is hard to predict how much 
money is going to be needed for disaster relief because none of 
us knows what the nature of the disaster situation is going to 
be from 1 month to the next, or 1 year to the next. And we can 
pick out a number, the administration can or the committee can, 
and put it in a bill, hoping that will take care of the needs. 
What happens, though, if we get to the point where obviously we 
are today--and your answer suggests we may be about to run out 
of money in the disaster relief account--what happens when you 
do run out of money and Congress has not put sufficient funds 
in a supplemental or provided them to your office?
    Mr. Brown. Historically, Mr. Chairman, yearly 
appropriations average approximately $3 billion for the 
Disaster Relief Fund, the DRF. That normally gets us through a 
typical year of covering ongoing disasters. For example, right 
now we have, approximately 50 open disasters on which we are 
expending funds, either in individual assistance or public 
assistance.
    That assistance may include things like payments to 
individuals for repairs to homes, payments to State and local 
governments for repair of buildings, roads and bridges and so 
forth.
    What normally happens is that the Office of Management and 
Budget (OMB) will keep the Disaster Relief Fund at about a 
half-billion-dollar level. A couple of days ago, it was down to 
about $28 million, the lowest in the history of the agency, I 
believe. It is now back up today, I think, to about $44 
million.
    If OMB does not release the funds soon to the DRF, EP&R 
will probably have to delay the start of some projects or 
postpone the completion of other projects until we do receive 
the needed funds.
    Senator Cochran. Am I correct in assuming that many of 
these projects you are talking about are projects that are 
really under the purview of local governments, counties or 
States, where they are rebuilding a bridge or repairing 
infrastructure of one kind or another?
    Mr. Brown. Yes. Either assistance to individuals as a 
result of a disaster or public assistance to State and local 
governments. We provide funds through the State governments and 
they pass it to the entities in the declared disaster area. But 
primarily we are talking about public assistance projects, 
which would be the buildings and that type of thing that would 
have been damaged in a disaster.
    Senator Cochran. Yes. So if those local Governments are 
deprived of funds, particularly over a long period of time, we 
are going to run the risk of creating some more problems and 
hazards for the people who live in those communities, or 
States, is that correct?
    Mr. Brown. That is correct. We will reach some go point 
where I will have to have my financial people and others 
through to see what projects have been obligated and which ones 
we need to pare back until we either get a release of funds 
from OMB or additional funding in the DRF.

                    ASSISTANCE TO FIREFIGHTER GRANTS

    Senator Cochran. I want to ask one other question. Then I 
am going to yield to other members of the committee for any 
questions that they have. Can you tell us why the budget 
request shifts the assistance to firefighter grants from 
Emergency Preparedness and Response to the Office for Domestic 
Preparedness?
    Mr. Brown. The President's original proposal recommended 
that the entire first responder grantmaking process in the 
Department of Homeland Security be moved to FEMA, the Emergency 
Preparedness and Response Directorate. Congress chose not to do 
that, and instead chose to split the first responder grants 
between FEMA and ODP. As we move through the transition, all of 
the normal first responder grantmaking processes that FEMA 
performs will go into ODP within the Border and Transportation 
Security Directorate to create a one-stop shop for first 
responders.
    Senator Cochran. Do you have any concerns regarding the 
shift in the administration of this important grant program--if 
so, what are they?
    Mr. Brown. I think the record would show that, as Senator 
Byrd has commented, FEMA had some glitches in the beginning. I 
also think the record would show that over the past 10 to 12 
years, FEMA has done an exceptional job of processing those 
grants in a very timely and organized fashion.
    I am committed to making certain that if the grants do move 
to ODP, that we will provide whatever resources we need to 
provide to ODP to allow them that same culture and that same 
ability.
    Senator Cochran. Thank you. Senator Byrd.

                          DISASTER RELIEF FUND

    Senator Byrd. You have said that your current balance is 
about $44 million?
    Mr. Brown. Yes, sir.
    Senator Byrd. And, what is the amount that can be made 
available on a contingent basis? Have you made a request to 
OMB?
    Mr. Brown. Yes, Senator, we have asked OMB to release the 
funds to get us back up to at least the $500 million level.
    We started that process in early February.
    Senator Byrd. Given the fact that in an average month FEMA 
pays out $250 million from the Disaster Relief Fund, $544 
million does not seem like enough to get you through the end of 
fiscal year 2003. Will the President send up a supplemental 
funding request?
    Mr. Brown. I do not know, sir. You will have to ask him.
    Senator Byrd. Well, why would I have to ask him?
    Mr. Brown. I do not know if the Administration plans on 
submitting another supplemental request.
    Senator Byrd. Well, do not give me a flippant response like 
that.
    Mr. Brown. I am not, Senator. I am just saying I really do 
not know whether or not they are going to request another 
supplemental.
    Senator Byrd. Okay. You do not have to say to me, ``You 
will have to ask him.'' I know how to ask the President a 
question.
    Mr. Brown. Yes, sir.
    Senator Byrd. And I know how to ask agency heads questions. 
What will happen if you run out of money?
    Mr. Brown. We will have to start delaying projects.

                    ASSISTANCE TO FIREFIGHTER GRANTS

    Senator Byrd. Recently, the U.S. Fire Administration 
released a report that concluded that only 13 percent of the 
fire departments are trained and equipped to deal with 
biological, chemical or radiological weapons. With this 
striking weakness in the ability of our first responders to 
respond to a known threat, I am disappointed to see that the 
President's fiscal year 2004 budget proposes to cut grants to 
fire departments from $745 million to $500 million.
    I am disappointed by the fact that the administration has 
continued to represent its $3.5 billion proposal for first 
responders as an adequate level, when it in fact provides no 
more resources than that enacted in fiscal year 2003 for 
similar programs.
    Given that your agency identified the weakness in 
firefighting programs, do you believe that the President's 
request is adequate?
    Mr. Brown. What we are trying to do, Senator, is to make 
certain that through the Assistance to Firefighters Grant 
Program, we get the money to where it is most needed, where 
there is the greatest risk.
    One of the things I have talked about is that we need to 
take the funds we get from Congress and the Administration for 
the fire program, and make sure that they are used as wisely as 
possible.
    One way I am trying to do that is to get the different fire 
departments to stop competing against one another, particularly 
when they are located close to one another or when there is 
some way that they can cooperate on a regional basis to better 
utilize taxpayer dollars.
    I often use my home State of Colorado as an example. There 
is no reason why Denver, Boulder and Fort Collins, all located 
right together on the front range, should each be applying for 
the same equipment. What they should do is get together and 
figure out what their vulnerabilities are, then apply for 
funding based on cooperative resolution of those 
vulnerabilities.
    I think that is a better way for the fire departments that 
are inadequately prepared to get the equipment that they need.
    The $3.5 billion funds the grant programs that award monies 
for training and equipment to combat terrorism. The purpose for 
which the funds are requested to be used is one of the factors 
considered in the peer review process to decide who should or 
should not be getting a grant.
    Senator Byrd. So I take it that you do not believe that the 
President's request is adequate?
    Mr. Brown. There will always be more requests than 
available funds. For example, Senator, with the current $750 
million appropriation for the firefighter grants, we have well 
over 20,000 applications in the pipeline representing almost $2 
billion worth of requests.
    Senator Byrd. Do I have any more time? Are you----
    Senator Cochran. Can we move to these others, and come back 
to you?
    Senator Byrd. Yes. Let us do that. Thank you.
    Senator Cochran. Thank you, Senator.
    Senator Craig.
    Senator Craig. Well, thank you very much, Mr. Chairman. I 
will be brief. I do not have any detailed questions, but, Mr. 
Secretary, I thank you for being before this committee. I am 
telling you as a member of the Senate, I am one who--while I 
supported and will support Homeland Security as an agency and 
worked with everyone here to get it stood up and operating 
from, at least, a legal and structural point of view and a 
policy point of view, I was one of those that was concerned 
that FEMA get buried and not be as effective as I believe it 
has been over the last good number of years.
    It is one of those agencies that I think did have the 
credibility in the turn-around time and did not get caught up, 
it seemed, in so many ways that other agencies seem to as it 
related to getting to its mission at hand and executing it.
    I hope that does remain the case. We will continue to work 
closely with you on it in serving on this new committee. I am 
anxious to work with the chairman to make sure all of that 
happens, at least from the funding side that which is 
appropriate.
    I also do not believe in backing so much money up you 
cannot get it out the door. I also recognize that sometimes it 
is important, even in critical times, that folks stand in line 
and wait just a little bit. It makes them a bit more efficient 
in the current operations and--but I will tell you that the 
fire money that comes to our departments across rural Idaho and 
across Idaho itself has been very, very effective, and I think 
put to use wisely and appropriately. And it has made those 
departments more responsive under the new responsibilities we 
are giving them. They are obviously going to need some help in 
developing the expertise necessary, so these grants are 
important. Thank you.
    Thank you, Mr. Chairman.
    Mr. Brown. We thank you for those compliments, Senator. I 
appreciate that.
    Senator Cochran. Thank you, Senator Craig.
    Senator Kohl.

                   HOMELAND SECURITY ADVISORY SYSTEM

    Senator Kohl. Thank you very much, Senator Cochran.
    Mr. Brown, the current terror alert system, as it is 
intended to do, is causing people to be considerably alarmed 
and to come to attention, as well as causing considerable 
expense inevitably across many parts of our country. At a time 
when budgets are squeezed, a higher alert status has, in many 
cases, resulted in an increased overtime and anxiety.
    Many areas of our 50 States are beginning to not take the 
system seriously enough, because they believe that the threat 
does not apply to them. This alert system could easily turn 
into the boy who cried wolf in that people will not take it 
seriously enough until it is too late.
    What changes to the system is the Department considering 
and can we, in fact, expect changes in the future?
    Mr. Brown. I think Secretary Ridge has addressed that by 
trying to emphasize that the color-coded system is really 
geared toward the law enforcement and professional communities 
to give them an idea of where they need to be in their states 
of readiness. And I would use FEMA, again, as an example of 
what to do. We are trying to get States and locals to adopt a 
similar type of program.
    We have in our operations manual the different steps we 
would take at the different threat levels. Rather than 
implement every single one of those steps, we implement what is 
important based on the particular threat. We do this so that we 
do not have just these huge operational expenses for 
everything, but only for what we specifically need based on the 
threat.
    What we would like to do is educate the State and locals to 
do the same thing, that whether they ratchet up completely or 
not is something that they can certainly do on their own. But 
they should consider ratcheting up only as it applies to the 
particular threat and to what is needed in their particular 
community.
    As Secretary Ridge continues to push down the idea that the 
alert system is for the professionals, I think we will avoid 
your concern about crying wolf.
    Senator Kohl. Well, what I was referring to is any code. 
Let us take the second highest, which I believe is--is that 
code orange?
    Mr. Brown. Yes.
    Senator Kohl. Yes. Well, when we issue a code orange alert, 
are we intending that every community in every State across the 
entire 50 States are at the same level of risk and should 
respond?
    Mr. Brown. When the Secretary and the Attorney General make 
the decision to change the threat level, they are doing that 
based on specific intelligence that they receive----
    Senator Kohl. Yes.
    Mr. Brown [continuing]. About the threat. And I would say, 
Senator, that based on the intelligence that the Secretary and 
that the Under Secretaries have received that caused the threat 
level to go up to orange, there is a very credible threat out 
there. I think it is incumbent upon us to convey that to the 
State and local governments as succinctly and as appropriately 
as we can.
    Senator Kohl. What we are asking them to do is go, all--
asking then all parts in all 50 States to go on an alert, and 
to do those things and spend that kind of money, which is 
consistent with the code orange----
    Mr. Brown. Yes, sir.
    Senator Kohl [continuing]. Are we suggesting that Rawlings, 
Wyoming is at the same level of risk as Washington, D.C. and 
New York City?
    Mr. Brown. No. But I think where I am miscommunicating is 
what Rawlings, Wyoming, should do. Let us say there are 40 
items that you can do at Code Orange. Rock Springs or Rawlings 
or some place in Wyoming instead ought to decide that they are 
going to do only 2 or 3 of those things, because they do not 
need to do all 40 of them. So they can hold down their costs by 
implementing that kind of system.
    Senator Kohl. And so then you are suggesting that every 
community should make a decision?
    Mr. Brown. Absolutely.
    Senator Kohl. Well, then would Los Angeles make a decision 
or can--are they in a position to make a decision any less than 
Washington, D.C. or New York?
    Mr. Brown. If I----
    Senator Kohl. Because--in other words, what I am suggesting 
to you--and it is okay because you are just starting, or we are 
just starting as a country and we need refinement. It seems to 
me that there needs to be considerable thought, as I presume 
and hope will be given, and some specific direction and 
guidance so that all States and communities within all States 
can be helped to make particular and specific decisions on what 
these alert systems really mean and how they should be applied 
and how they do not apply in many cases. In fact, you know, 
most parts of America are very unlikely to be hit in time of 
terrorism.
    And I have not yet heard from the Department an 
understanding and a recognition of that as some kind of an 
alert system that will account for the fact that most parts of 
our country are really at low risk even at times of high risk.
    Mr. Brown. Your point is very well taken, and I think it is 
incumbent upon FEMA, which is now part of the Department, to 
take its protocols and the way we decide what we should be 
doing or should not be doing and help the State and locals do 
the same thing, by giving them the tools they need to prepare 
based on the risk that they may face in their unique community. 
As you say, there may be a community that looks around and 
says, ``Our risk really is a dam that might be blown up. So 
when we change threat levels we need to focus our energy on 
that particular vulnerability.'' They might not need to do 
everything that FEMA suggests should be done when we go from 
one level to another.

                            TRAINING GRANTS

    Senator Kohl. Thank you. Last question: As you know, State 
and local governments are struggling with budget cuts. Many are 
also working with reduced staffs because of call-ups of the 
Guard or Reserve; and add to this the seemingly constant 
elevated security alert level at times, and the Governments are 
struggling with skyrocketing overages, overtime costs, local 
and State Governments, associated with our new security threat.
    As a result, many fire departments and emergency managers 
are not sending their people to training, because those extra 
hours mean even more overtime and overtime that they are not in 
a position to account for.
    So my question is, will the Department allow the use of 
training grants to reimburse for overtime?
    Mr. Brown. Senator, I think I will be corrected or somebody 
will kick me in the chair if I say this incorrectly, but I am 
pretty certain that we are restricted from using the grant 
money for overtime. I think what we want to do instead is to 
try to get as much of that grant money out to the localities as 
possible for ``train the trainer'' programs. By doing so, we 
can push the training down to the State and local levels and 
not require them to go some place else for the training. I 
think that would help alleviate part of that problem.
    Senator Kohl. Well, I think what you are saying is true, 
and that is what I am referring to. I am suggesting that 
because those training grants cannot be used for overtime----
    Mr. Brown. Right.
    Senator Kohl [continuing]. And because overtime is being 
expended, so I am asking--and they do not have the money to 
compensate for that overtime----
    Mr. Brown. That is correct.
    Senator Kohl [continuing]. So that they do not send their 
people in many cases to these training programs, which you 
definitely want them to do.
    Mr. Brown. That is right.
    Senator Kohl. They cannot pay for it.
    Mr. Brown. That is right.
    Senator Kohl. So aside from, you know, throwing up your 
hands and saying, ``Well, you will just have to make do the 
best you can with these increased emergency problems and 
training problems,'' which is not something we want to do, how 
else are they going to pay for this overtime----
    Mr. Brown. Well----
    Senator Kohl [continuing]. Use some of this training money. 
You know, maybe you would suggest, well, you can use 20 percent 
of it or 10 percent or 5 percent, not all of it, but something 
that would give the States and the local governments access to 
some additional funding to pay for the training that is being 
required.
    Mr. Brown. Right. I mean, you are absolutely correct. And 
absent that statutory ability to do that, then what we do is 
try to push the training down to them to minimize and mitigate 
the cost of that overtime.
    Senator Kohl. Say that again.
    Mr. Brown. To the extent that we have some statutory 
relief, which would allow us to do that----
    Senator Kohl. Yes.
    Mr. Brown [continuing]. What we do in the alternative is to 
push the training down to the State and local levels, take it 
as close to that recipient as possible to minimize the amount 
of overtime that they have to incur in order to receive the 
training.
    I mean, we could consider that in the 2004 grants, but we 
cannot do it in the 2003 grants.
    Senator Kohl. Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Kohl.
    Senator Murray.

                     NATIONAL STRATEGY ON TRAINING

    Senator Murray. Thank you very much, Mr. Chairman.
    And Mr. Brown, thank you for being here today. I think the 
training we do for first responders is extremely important. I 
think we need to do everything we can to better prepare our 
communities for natural disasters or terrorist acts or 
whatever, you know, is out there. And I know that several 
directors within the Department are working on the training 
issue. I have talked to Secretary Ridge about this as well.
    Last year, there was a lot of talk about the importance of 
developing a national strategy on training, and I am curious 
what happened to that national strategy, if you can give us an 
update on that.
    Mr. Brown. That is still in the works. That is one of the 
things that EP&R is taking on within the Department to develop. 
Just like we are trying to develop and put together the 
national response plan, we are also trying to put together a 
national training program at the same time.
    Senator Murray. But we have not developed a national 
strategy on training as of yet?
    Mr. Brown. Not yet.
    Senator Murray. How can----
    Mr. Brown. We still have the training programs within FEMA 
that will be transferring; and we are now trying to develop 
those kinds of strategies across all directorates.
    Senator Murray. Well, how do we know what an appropriate 
level of funding is unless we know what the national strategy 
is on that?
    Mr. Brown. I am not sure I am equipped to answer that for 
you, Senator.
    Senator Murray. Well, we will be having to make a decision 
on this committee on how much to put into training. And unless 
we know what the national strategy is it is----
    Mr. Brown. Right.
    Senator Murray [continuing]. Going to be difficult to do.
    Mr. Brown. I will be happy to take that back and formulate 
an answer for you.

                  HAMMER TRAINING AND EDUCATION CENTER

    Senator Murray. Okay. Last year, Mike Byne visited my home 
State of Washington to see the HAMMER Training and Educational 
Facility that is located in Richland, Washington. That is a 
training facility that is used by FEMA already. It is used by 
the Department of State, the Marine Corps, Army National Guard, 
Department of Energy, local law enforcement. It is an excellent 
facility. Can you give me an update on what the 
administration's consideration of HAMMER is for training 
purposes?
    Mr. Brown. We want to take all of the assets that we have 
in Homeland Security and expand those. We have not only 
Emmitsburg, we have the Noble Training Center. We have your 
facility in Washington. We want to take all of those and 
enhance them as much as possible, because I believe, and I 
think departmentwide we all agree, that whatever facilities we 
currently have we must expand and make them as efficient as 
possible and utilize them as best as possible.
    Senator Murray. Do you have a timeline for when you will be 
making those decisions; and, again, I ask because we are going 
to have to be making some decisions about funding and 
management that we need to move forward on. So do you have a 
timeline on when you would?
    Mr. Brown. Okay. I am told that the timeline is now out to 
the States for them to look at to see what kind of timeline 
they need. There is apparently some money in ODP now, for them 
to develop what they want to do with the facility.
    Senator Murray. So are the States going to be responsible 
for the training, or is your agency?
    Mr. Brown. We would be responsible for providing the money. 
But the training is actually done at the State and local 
levels.
    Senator Murray. Well, the HAMMER Facility is a national 
facility. It is not just Washington State. It is for training 
for nationally.
    Mr. Brown. We have to confess we are not familiar with that 
one and all the programs in it, but we will look into it.
    Senator Murray. Well, if you could, and if you could talk 
to Mike Byrne, because he had been out--but we cannot just say 
Washington State, you are going to do HAMMER.
    Mr. Brown. Right.
    Senator Murray. It is a national training facility. It is 
going to take Federal funds. And we need direction on that.
    Mr. Brown. Yes, we will find out.

                   COMMUNITY EMERGENCY RESPONSE TEAMS

    Senator Murray. Okay. In your testimony you talked about 
Community Emergency Response Teams, the CERT, which I was happy 
to hear you reference, because I know that that is a very 
valuable program for training.
    I recently spoke with some of the emergency management 
facilities--officials actually from my State about CERT, and I 
got to tell you the answer I got from the ones in my State 
reinforces to me that the Federal Government is not doing 
enough in this area to prevent another attack on our country. I 
was told that Washington State got $70,000 for CERT training 
from FEMA in 2002, and amazingly the State only recently got 
approval from the Department to spend the fiscal year 2002 
money on training.
    You--we are here today to talk about the 2004 budget. Can 
you explain to me why the 2002 money is just now going out the 
door?
    Mr. Brown. That money, Senator, was from the supplemental 
in August, so that is maybe why it is just now hitting the 
streets.
    Senator Murray. Well, actually, my State was supposed to 
get $70,000 from the 2002 budget, FEMA 2002 budget----
    Mr. Brown. Yes.
    Senator Murray [continuing]. For CERT training. They just 
got approval from the Department right now to spend that 2002 
money. So I am just wondering what--you know, why it is taking 
so long. This is from 2 years ago. It was not from the 
supplemental.
    And my next question was going to be what about the 2003 
money. Are you getting that out the door? I heard Senator Kohl 
talk about training and using some of that money for overtime; 
and I would just caution us that if the money is not getting 
out there for training, it is not that it is not needed for 
training. It is just for some reason there has been some 
bureaucratic hang-ups in getting it out there.
    Mr. Brown. Well, I am determined to go back and find out 
why, because we have an excellent reputation of getting the 
money out the door. I want to find out specifically why this 
money has taken longer than normal to distribute.
    Senator Murray. I would----
    Mr. Brown. I will find out and get that answer back to you.
    Senator Murray. Because I think those training dollars are 
extremely important, right?
    Mr. Brown. I could not agree more.
    Senator Murray. Okay. Thank you.
    Thank you, Mr. Chairman.

                      INTEROPERABLE COMMUNICATIONS

    Senator Cochran. Thank you, Senator Murray.
    When we were considering the supplemental appropriations 
bill, Mr. Secretary, in the Senate, money was added for the 
Emergency Preparedness and Response Directorate's disaster 
relief account for interoperable communications. I wonder if 
you could tell us if in the conference report we do make these 
funds available, whether they can be spent in this fiscal year.
    Mr. Brown. Senator, I have discussed that with the staff, 
and they assure me that we can get the interoperability funds 
out by the end of this calendar year. The firefighter grants 
will be out by the end of the fiscal year 2004.
    Senator Cochran. How does the agency plan to deal with the 
fact that the budget request for 2004 does not include any 
funding for interoperable communications equipment within your 
directorate's account? But it includes it within the Office for 
Domestic Preparedness. How is this going to be resolved?
    Mr. Brown. We will provide ODP with program support or 
whatever it takes to help them, one, get the money out the 
door; and, two, to use it effectively.
    Senator Cochran. Yes. Well, I assume then that other 
agencies within the Department can obtain the use of funds that 
are appropriated to the Office for Domestic Preparedness for 
this purpose. Is that your understanding?
    Mr. Brown. That is my understanding.

           OPERATION OF EMERGENCY RESPONSE AND SUPPORT TEAMS

    Senator Cochran. In the response division, you talk about 
gaining operational control--your directorate having 
operational control over three teams, the Domestic Emergency 
Support Team from the FBI, the National Disaster Medical System 
from the Department of Health and Human Services, and the 
Nuclear Incident Response Teams from the Department of Energy. 
How is this going to work? Will these teams essentially remain 
under the jurisdiction of their departments as they now exist, 
but simply receive funds that are allocated to them through the 
Department of Homeland Security?
    Mr. Brown. Well, it is a mishmash. Generally, the 
operational control of those different teams falls under 
Emergency Preparedness and Response. So, for example, the 
Nuclear Incident Response Teams, we will deploy those as 
needed. But the training and the money to fund and manage those 
will actually come from the Department of Energy.
    Then you take the Domestic Emergency Support Team from the 
FBI. Again, we deploy it, but there is no money that comes over 
with it from the FBI. We have not yet quite figured out how we 
would actually deploy it and find the money to manage that 
deployment.
    Regarding the National Disaster Medical System (NDMS), we 
have entered into a memorandum of agreement with HHS to have 
operational control of it, but to rely upon HHS again for the 
management and--what is the word I am looking for--to manage 
and----
    Oh, right. Okay. I am being corrected. I am talking about 
the Strategic National Stockpile. In terms of the Stockpile, we 
do have the operational control of it, and we do have an 
agreement with HHS.
    Back to the NDMS, we would deploy the Disaster Medical 
Assistance Teams in it but they do not come with any sort of 
money to manage or train or do anything in particular with 
them. We would have to enter into an MOA or MOU with HHS to do 
that.
    Senator Cochran. And the NDMS is the National Disaster 
Medical System, right?
    Mr. Brown. That is correct. Those are the DMATS and the 
DMORTS.

                    PROJECTS BIOSHIELD AND BIOWATCH

    Senator Cochran. Well, this fits in with what we have 
become familiar with as project BioShield. You referred to 
BioWatch in your statement. Is this the same thing, or are 
these two different things?
    Mr. Brown. Two different things.
    BioShield is the President's $900 million proposal for the 
creation of the experimental or the new vaccines, and BioWatch 
is the program by which we are trying in several selected 
places to implement new monitoring and detection systems.
    Senator Cochran. What will the role of your directorate be 
with respect to BioShield if it is enacted?
    Mr. Brown. We will simply act as the middle man and at some 
point NIH and CDC would come to us and say we think we have a 
product here.
    On the other side, we would say we have identified a 
specific threat, a specific biothreat that needs to be 
addressed, and we would marry those two up. We would actually 
simply act as the middle man, the contract and the funnel for 
the money.

                      STRATEGIC NATIONAL STOCKPILE

    Senator Cochran. Well, in terms of your relationship with 
the Department of HHS, will Homeland Security have the final 
decision-making authority over what goes into the National 
Pharmaceutical Stockpile?
    Mr. Brown. This is the National Pharmaceutical Stockpile, 
which is now called the Strategic National Stockpile. And we 
will rely on HHS's expertise to tell us what needs to go in 
there.
    Senator Cochran. Well, will they decide what comes out or 
how you get access to----
    Mr. Brown. No. We will do that.
    Senator Cochran. You will decide that.
    Mr. Brown. We will control the operations and deployment of 
the stockpile.
    Senator Cochran. Yes. Well, does your directorate have the 
expertise to make these decisions, do you think?
    Mr. Brown. I think we do, in terms of the deployment and 
the response, because we have the National Disaster Medical 
System on our team now, thus we have already had meetings with 
the Surgeon General about creating within Emergency 
Preparedness and Response a medical advisory team for that very 
specific purpose.
    Senator Cochran. Thank you very much. I am going to yield 
to others on the committee now for any other questions they may 
have and I may have a few in conclusion.
    Senator Byrd.

                        FLOOD MAP MODERNIZATION

    Senator Byrd. Thank you, Mr. Chairman.
    West Virginia has suffered immeasurably from flooding and 
other natural disasters. My home State is under a disaster 
declaration right now due to flooding. The West Virginia Flood 
Prevention Task Force, which I convened, has identified 
strengthening the floodplain management program as the most 
effective way to stop the vicious cycle of repetitive flooding 
in West Virginia.
    One of the most important tools to floodplain management is 
to have accurate, up-to-date flood maps. Last year, Congress 
appropriated $150 million to the Flood Mapping Program at FEMA. 
This was the largest appropriation to the Flood Mapping Program 
in its history.
    But by your own estimates, it will cost $950 million to 
modernize all flood maps in the country, so it is important 
that these funds be targeted to the communities that are most 
at risk. I believe that flood map modernization funds should be 
targeted to the most flood-prone communities. And in the past, 
FEMA has administered the flood map modernization program by a 
population-based formula. Can you tell the subcommittee how you 
plan to administer the fiscal year 2003 and 2004 funds?
    Mr. Brown. Yes, Senator, I can. I would say that I think 
the task force and the effort that your State is making is 
commendable. We wish we could get all States to recognize that 
if they could get together and start doing that kind of 
planning, it would help us do our job even better.
    We are currently doing a modernization on a strategy that 
was developed by a stakeholders meeting on February 5 and 6 of 
this year. It is based on high-population density, high-growth 
areas, high-risk areas; but most importantly, history of 
repetitive loss claims and what the policy base is, plus the 
ability to leverage and cost-share with the State and locals.
    So while population density is important, we are trying at 
the same time to weigh that against the high-risk and high-
prone areas.
    Senator Byrd. Are you saying that you will be moving from a 
population-based formula for funding this program? You will be 
moving away from that?
    Mr. Brown. No. Population is just one criterion now.
    Senator Byrd. Yes. The West Virginia Flood Prevention Task 
Force concluded that 18 full-time staff would be needed to 
properly implement flood plain management activities. But, the 
State can only afford to pay for one full-time staff. How would 
you ensure that you do not penalize States that desperately 
need flood-mapping resources, but whose financial straits 
hinder their sophistication?
    Mr. Brown. Because we want to look, Senator, at where the 
flood maps need to be done first based on that--those different 
criteria. We are not going to penalize a State simply because 
they may not be, for example, like North Carolina, which has a 
very robust program, versus a State that cannot afford to do a 
whole lot. We want to do it where it is going to have the most 
effect in terms of getting the maps out the door.
    Senator Byrd. Given West Virginia's history of flooding and 
how outdated its flood maps are, this is a very important 
program to the State. The West Virginia Senate and the West 
Virginia House passed resolutions in January of 2003 calling on 
FEMA to expedite the process of updating West Virginia's flood 
insurance rate maps.
    In the past, FEMA has used the population-based formula to 
distribute the flood-mapping funds. That approach does not take 
risk into account. This hurts States like West Virginia that 
are small in population, but they are at disproportionate risk 
of flood damage.
    I understand that you intend to change the way the program 
is administered and take risk into account, is that correct?
    Mr. Brown. That is correct. We also increased the State 
funding for State flood plain management to $1 million in 
fiscal years 2002 and 2003. So there should be additional 
resources coming for that purpose.
    Senator Byrd. Very well. So, you do intend to take risk 
into account?
    Mr. Brown. That is correct.
    Senator Byrd. All right. Thank you.
    Mr. Chairman.
    Senator Cochran. Thank you, Senator Byrd.
    Senator Harkin, we welcome you as a member of our 
subcommittee.
    Senator Harkin. Thank you.
    Senator Cochran. You may proceed with any questions or 
statements you might have.

                              FOOD SAFETY

    Senator Harkin. Thank you, Mr. Chairman. I have no 
statement, Mr. Chairman, just two little points that I would 
like to be able to get a response on, Mr. Brown.
    And one is food security. We have talked about this. I have 
talked about it with Secretary Ridge. And from my--my 
standpoint on the Agriculture Committee and just looking, I do 
not see a lot really being done there. I do not know what kind 
of plans are being made. Maybe they are. I just--I just do not 
know about them. But, you know, we have so many entry points 
for contamination of our food supply in this country.
    And I know that if it were caught, it might--you know, if 
something--if somebody worked to invade the food supply at one 
of these entry points, they probably--because of the system we 
have set up--it probably could be contained fairly rapidly.
    However, it is the psychological impact that happens when 
something gets in the food supply like that, and God forbid 
some people die of that, what happens to the rest of this 
country? Because as you know, some food--let us say a meat or a 
meat product could enter at some point--just a couple three 
points, and it could be all over the United States in the next 
24 hours the way the delivery system is right now.
    And yet we still continue with the same basic system that 
we have had for a long time. And I just want your response as 
to whether you think this is being due--given due consideration 
at the--at your department.
    Mr. Brown. I think that it is. I mean, I do not know that 
much about it, simply because it is something that is not in my 
area.
    Senator Harkin. Yes.
    Mr. Brown. But I do know that APHIS falls now under Border 
and Transportation Security and that Under Secretary Hutchinson 
is taking it very, very seriously.
    But I would like to comment on a point that you made about 
the terror aspect. I think the mitigation factor is one 
important thing that FEMA brings to the table in the Department 
of Homeland Security. When terrorists do something, they are 
looking for two effects. They are looking for the immediate 
effect their act has, such as blowing up something or killing 
people.
    Senator Harkin. Yes.
    Mr. Brown. But beyond that, they are looking for the terror 
that act imposed, and the disruption in the economy, or society 
that it causes.
    FEMA, I think, is well placed to mitigate those effects. If 
you take a natural disaster or a manmade disaster, whether it 
be the chemical truck that spills over accidentally or spills 
over on purpose because of a terrorist incident, to the extent 
that we can train firefighters and other first responders to 
minimize the effect of that chemical truck spilling over, we 
have taken away one of the tools of the terrorists.
    Senator Harkin. All right.
    Mr. Brown. We have mitigated against that.
    Senator Harkin. Correct.
    Mr. Brown. I want to emphasize that is the same attitude 
that I know Under Secretary Hutchinson takes when he is 
addressing the bioterror aspects of food and other agricultural 
products.

                        FLOOD MAP MODERNIZATION

    Senator Harkin. The second part is probably maybe a little 
bit more in your area, but I wanted to get that in about the 
food supply. I will every time we have a hearing on this.
    And I do not know if Senator Byrd asked--I heard him talk 
about flooding in West Virginia, but in the--did you mention in 
the 2003 appropriations bill, we had put in $150 million in 
additional funds for flood plain mapping. And the need for 
updated maps has been a long-term need across the country, and 
when will those funds be released? Was that the question that 
was asked? I do not know if that was asked. If it was not, I 
would like--if it was----
    Mr. Brown. Yes. Right. The Senator referred to the 
additional $150 million.
    Senator Harkin. Well, when will the funds be released?
    Mr. Brown. We now have a process in place. I have learned a 
lot just in the past couple of weeks about panels and how we 
are putting different panels together around the country----
    Senator Harkin. Yes.
    Mr. Brown [continuing]. And then implementing this strategy 
of defining the population, the risk areas, where the 
repetitive losses are occurring, prioritizing those and 
starting to get the funds out.
    The funds are going out in two different mechanisms. They 
are either going directly to the States which already have 
their own programs, or to private companies which have their 
own programs, so I think the funding has already started in 
terms of modernizing those maps.
    Senator Harkin. Well, I was not aware of that.
    Mr. Brown. I am also told that those particular funds have 
not been released from OMB yet. We have the strategy in place, 
but the funds have not been released.
    Senator Harkin. Okay. Well--and no time when, huh? And also 
will the funds be allocated nationally so that each region can 
meets its highest needs? What kind of--do you know anything 
about the allocation of those funds?
    Mr. Brown. Yes. It is going to be.
    Senator Harkin. Okay.
    Mr. Brown [continuing]. When I outlined the strategy to 
Senator Byrd earlier, that was done with the stakeholders' 
input and they have outlined on a national basis how we start 
this. We jump start it all over the country.
    Senator Harkin. Thank you very much, Mr. Brown. Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    Senator Byrd, do you have any additional questions?

                   EMERGENCY FOOD AND SHELTER PROGRAM

    Senator Byrd. Thank you, Mr. Chairman.
    I would like to ask a question about the Emergency Food and 
Shelter Program. It has been well run, well managed by FEMA. 
Now that FEMA has moved to the new department, the President 
has proposed to move the program to the Department of Housing 
and Urban Development.
    Could you state what the rationale for moving a program 
that had been effectively administered by FEMA to HUD may be?
    Mr. Brown. The administration's position was that the 
Emergency Food and Shelter Program was really not quite in sync 
with the traditional role of FEMA, and more appropriately 
belonged in Housing and Urban Development.
    Senator Byrd. And Congress specifically chose to keep the 
program in FEMA in the fiscal year 2003 omnibus appropriations 
bill and rejected the President's proposal to move the program 
to HUD. Are you committed to implementing the program in fiscal 
year 2003?
    Mr. Brown. Absolutely, Senator. If it stays with FEMA, we 
will continue to implement it. If it moves, we will do 
everything in our power to assist HUD in keeping that same 
high-level standard of operation.
    Senator Byrd. Well, I hope that the program does not fall 
through the cracks at the Department. It is a popular program 
in our communities. And it helps to address the growing crisis 
of homelessness.

                      INTEGRATION OF FEMA INTO DHS

    I have one more comment, then one more question, Mr. 
Chairman.
    In the past, the vast majority of FEMA's activities have 
been in preparation for and in response to natural disasters. 
FEMA is an all-hazards agency. But like many other Federal 
agencies since September 11, FEMA has provided increased 
resources to responding to terrorist threats.
    What steps are you taking within the new Department to make 
sure that your new agency's ability to respond to natural 
disasters is not affected by its integration into the 
Department of Homeland Security?
    Mr. Brown. A couple of things, Senator. First of all, I 
want to just state for the record that I am absolutely 
personally committed to making certain that we do not lose that 
capability and that approach.
    But to specifically give you some examples of how we are 
doing that, first and foremost, in the realignment that I am 
taking FEMA through right now, we are realigning it along the 
traditional lines of emergency management--preparation, 
response, recovery, and mitigation. Those will be the four main 
functions of this particular directorate.
    I think it is important, secondly, that you understand that 
I am going to do everything in my power to maintain our 
relationship with State and local governments. I think you have 
heard Director Albaugh say this, and I think Secretary Ridge 
has said it. I want to repeat it, that when there is an 
emergency, they do not dial 202, they dial 911.
    The people who respond are the State and local governments. 
We must continue to keep them in the loop and recognize that 
they are the first responders. Those are the ones that we have 
to make certain are prepared and know how to respond.
    I cannot resist giving the example of the barge that 
started burning in New York Harbor a few months ago and there 
was a feeling that we ought to go do something, when, in fact, 
it was a simple barge fire. I mean, not to minimize the effect 
of a barge fire, but it was a barge fire in New York Harbor, 
and it is something that the State and locals are trained to 
respond to and which they did quite well.
    We must maintain that focus. FEMA's focus must be on 
responding when something is beyond the State and local 
capability.
    Senator Byrd. Well, there has been a great deal of concern 
that State and local preparedness for natural disasters could 
be impacted adversely by the integration of FEMA into the new 
Homeland Security Department. In my own case, I am very 
conscious of the natural disasters that occur so often, coming 
from a mountainous country as I do, and having experienced so 
many times over these past 50 years, Mr. Chairman, responding 
to communities that have been stricken in those flood-prone 
valleys; and having responded by seeking appropriations for 
water resources projects, reservoirs, and so on. My 
constituents and I are very concerned about this.
    The Homeland Security Act instructs FEMA to maintain its 
all-hazards focus. But, the threat of terrorism and the 
Department's emphasis on it could overshadow the emphasis on 
natural disasters. I have been comforted by the responses given 
by Mr. Brown to my questions.

                  EMERGENCY RESPONSE AND SUPPORT TEAMS

    You have not requested funding for the National Domestic 
Preparedness Office, the Domestic Emergency Support Teams, or 
for the Metropolitan Medical Response System; but your 
directorate is responsible for administering these programs. 
How will you pay for them?
    Mr. Brown. We are currently going through a process of 
analyzing what is actually in the budgets of those particular 
programs in the other departments, and seeing what we can get 
out of those departments to help fund those.

                   PRE- AND POST-DISASTER MITIGATION

    Senator Byrd. Will pre-disaster mitigation and disaster 
relief activities suffer in your judgment?
    Mr. Brown. No, sir. They will not.
    Senator Byrd. What makes you think that?
    Mr. Brown. Because I think that the State and locals 
recognize that pre-disaster and post-disaster mitigation are 
both viable programs, and that in either direction we go, pre-
disaster or post-disaster, we can minimize the effects of 
disasters. If we do it pre-disaster, we can do it based on our 
longstanding understanding of where the risks are, of 
encouraging the States to come in with plans, with the best 
mitigation programs for their States and for their risks.
    If we do it post-disaster, we will continue to do the same 
thing we have done in the past, to go into a place where it has 
been hit hard, where there is the motivation to do mitigation 
programs. Either way, we can make it work.
    Senator Byrd. Thank you, Mr. Secretary. I want to help you 
when I can.
    And I want to thank you, Mr. Chairman, for having a good 
initial hearing. I think it has been a good one. You have been 
most fair. I appreciate the time you have allotted me to ask 
questions.
    Senator Cochran. Thank you, Senator Byrd. We appreciate 
your being here today and contributing to the hearing in the 
way that you have, as well.

                   SEVERE ACUTE RESPIRATORY SYNDROME

    Mr. Secretary, earlier today, I attended a hearing of the 
subcommittee that appropriates money for the Department of 
Labor, Health and Human Services, and we had before the 
committee the heads of the National Institutes of Health and 
the Centers for Disease Control and Prevention. Dr. Gerberding, 
who is the head of CDC, answered some questions, a few of which 
I asked, about this Severe Acute Respiratory Syndrome (SARS) 
virus that is scaring everybody from China to Mississippi and 
West Virginia. People are concerned about it, and they are 
fearful about what the consequences could be and how widespread 
it is going to be and who all is going to be affected and what 
we can do about it.
    And the medical community, of course, is talking about 
precautions that ought to be taken, and she responded to some 
questions on that subject. My question is what is the 
interaction that you expect to occur between the Centers for 
Disease Control and your directorate in the investigation of 
sudden disease outbreaks such as this?
    Mr. Brown. I think we have already established a very good 
precedent. When SARS initially broke out three or four weeks 
ago, we had conference calls--I believe it was a Saturday or a 
Sunday--where we started immediate interaction with them. Do we 
need to deploy anything from the stockpile? What do we need to 
do in terms of responding at all?
    I think we have already established those great lines of 
communication.
    Senator Cochran. Does this relationship relate to both 
terrorist activity, bioterrorism, as well as naturally 
occurring virus outbreaks such as SARS? Is this handled in any 
different way between you and the Centers for Disease Control?
    Mr. Brown. No. I think SARS is a good example of the 
biomedical programs and material that are coming into FEMA. It 
shows that we are able to respond and communicate regardless of 
what the source of the disease or the outbreak is; and that we 
are willing to open those lines of communications and discuss 
what is appropriate for the response.
    Should FEMA and EP&R be doing something? Should the CDC or 
NIH be doing something? I think it is just a good precedent we 
started with the SARS outbreak.

                EMERGENCY MANAGEMENT PERFORMANCE GRANTS

    Senator Cochran. Yes. Let me ask you about another subject, 
the Emergency Management Performance Grants. This is a program 
that was funded in fiscal year 2003 in the amount of $165 
million, which was $49 million over what was requested by the 
President. But in this budget request, there is no money being 
proposed, as I understand it. Are we missing something? Is it 
somewhere else in the budget and we just cannot find it, or is 
there no request for the Emergency Management Performance Grant 
program? Do you know?
    Mr. Brown. I have not found it, Senator, and I think that 
we need to recognize that the Emergency Management Performance 
Grants are something that is vital to State and local 
governments for them to operate and maintain their emergency 
operation centers and their staffs. I just think it is a very 
important program. We very much appreciate the additional money 
you gave us.
    Sixty percent of the $165 million is already out the door.
    Senator Cochran. Yes. Well, it seems to me that this 
program could contribute significantly to the challenge of 
securing our homeland, because these funds are used by local 
governments, as I understand it, to improve the capacity of 
State and local emergency management systems to function in 
times of emergency and in first responder situations.
    Do you share my views of the importance of the program and 
that it could be very useful in helping to secure our homeland?
    Mr. Brown. I think it is very good for State and local 
governments, yes.

                          DISASTER RELIEF FUND

    Senator Cochran. My last concern is that you mentioned 
earlier there was a shortfall in funding of the Disaster Relief 
Fund. That is a little troubling to me; because this last 
weekend, when I was in Mississippi on my way back to 
Washington, there were a lot of thunderstorms throughout our 
State, the mid-part of Mississippi. It was under thunderstorm 
warnings for the better part of the afternoon, and a tornado 
hit Meridian, Mississippi. And I was headed north to fly out of 
the northern part of the State.
    But my question is, if funds are needed for assisting local 
governments like that and you say there is a shortage of 
funding for the Disaster Relief Fund, I am worried that if we 
do not put something in the supplemental, we are going to be 
neglecting our responsibilities to these local governments.
    You pointed out how there were funds in the pipeline. There 
were needs out there and that OMB might be called upon to 
reallocate or do something to make up the shortfall. My 
question is, are supplemental appropriations required at this 
time for the Disaster Relief Fund? There is no request for the 
funds. What is the supplemental appropriation requirement?
    Mr. Brown. Senator, if you wanted to go back to the 
historical traditional funding of the Disaster Relief Fund, it 
would probably be somewhere in the ballpark of, I think, $1.4 
billion.
    It would be $1.4 billion to get us back up to where we 
were.
    Senator Cochran. That is in addition to what has already 
been spent in this fiscal year?
    Mr. Brown. Correct. That is correct.
    Senator Cochran. Well, I thank you very much. I think your 
responses and your enthusiasm for the challenges of this job 
are reassuring, certainly to me, and I think we are in good 
hands with you serving as Under Secretary of this Department's 
Emergency Prepardness and Response Directorate, as it is now 
called.
    I remember when James Lee Witt came before the Governmental 
Affairs Committee. He came up for confirmation, and he had been 
a local office holder in Arkansas. President Clinton had named 
him as his first administrator of FEMA. And he came by to make 
a courtesy call to talk about what he could expect and what 
would be asked of him, and what he needed to prepare to do at 
his confirmation hearing. And he was really kind of nervous 
about the whole prospect.
    He had seen things on TV that had scared him about what 
could happen to you in hearings like that. But I could tell 
right away he had the kind of disposition and commitment that 
was probably going to equip him to be an excellent 
administrator.
    And as it turned out, well, he handled himself very well at 
that hearing. I just said, ``Be yourself. Do not worry about 
it. Just try to be as direct and candid with your responses as 
you can. Nobody is going to be out to embarrass you. They all 
understand that you have never been at a hearing like this.'' 
And he did perform well.
    And he performed well as an administrator, because he 
really sincerely cared about the people that needed help from 
that Federal agency. And I think we have been blessed over time 
with a lot of people like him. Joe Albaugh was like that. He 
really wanted to make sure that when people needed help from 
the Federal Government, from his agency, they were going to get 
the help they needed.
    And he was personally out there seeing that they got it. 
And I think you are that same kind of person too. And I am 
pleased to see you serving in this position, and I wish you 
well. And you can be assured that our committee is going to 
support you and try to help you do your job and to do it well.
    Senator Byrd. Mr. Chairman, I wonder if the Secretary feels 
the $1.4 billion that he said is needed to bring it up is 
necessary. Does he feel it is needed? Does he feel that the 
supplemental should carry that?

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. I do not want to answer his question again 
for him, but he said yes.
    Senator Byrd. He did?
    Senator Cochran. Yes.
    Senator Byrd. I did not hear him say yes.
    Senator Cochran. Well, he did.
    Senator Byrd. Did he?
    Senator Cochran. Is that what you said?
    Mr. Brown. Yes, sir.
    Senator Byrd. Okay. I do not have any hearing aid.
    Okay. I--did you say yes?
    Mr. Brown. Yes, sir.
    Senator Byrd. Okay.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Thad Cochran

                          ALL-HAZARDS APPROACH

    Question. Please explain the steps you are taking to ensure those 
non-homeland security functions within the Emergency Preparedness and 
Response directorate are being preserved.
    Answer. The Emergency Preparedness and Response Directorate was 
created to ensure that the Department maintains its ability to respond 
to emergencies and disasters of all types. The Directorate is composed 
of the primary disaster response, recovery, mitigation, and 
preparedness programs formerly provided by the Federal Emergency 
Management Agency.
    While terrorism requires immediate and direct attention in the 
present environment, our core mission is to provide leadership and 
support to reduce the loss of life and property, and to protect our 
Nation's institutions from all types of hazards through a 
comprehensive, risk-based, all-hazards approach. The Emergency 
Preparedness and Response Directorate continues to take an all-hazards 
approach to preparedness, response, mitigation, and recovery, and we 
continue to work with State and local governments, as well as the first 
responder community, to this end. This consolidation of national 
response assets allows the Federal Government not only to provide the 
services that the American people have become accustomed to during 
emergencies and disasters and which existed prior to the establishment 
of the Department, but also enhances our ability to maximize Federal 
resources, streamline delivery processes, and focus programs and assets 
on State and local needs.
    However, we are not resting on our past achievements. We will be 
working with the Congress, other Federal partners, State and local 
leaders, and other affected stakeholders to continue to enhance our 
ability to respond effectively to all types of disasters.
    The focus of the disaster programs formerly within FEMA was one of 
an all-hazards approach. The all-hazards approach remains the focus and 
benefits from the more global perspective of the Department and its 
related components.
    Question. How has Operation Liberty Shield and the increased needs 
associated with elevating the terrorist threat level to orange affected 
the non-homeland security functions of Emergency Preparedness and 
Response?
    Answer. The Emergency Preparedness and Response Directorate's 
Response Division maintains the ability to monitor, analyze, and 
respond to situations resulting from any type of incident. Our response 
programs are designed in an all-hazard manner to allow for timely and 
effective response to emergencies and disasters. With the realignment 
of Federal response assets into one centralized operational component, 
this capability is enhanced.
    With Operation Liberty Shield, we have experienced increased costs 
associated with the protection of our facilities, as well as with 
enhanced operational readiness. At the same time, we have also 
maintained a more robust monitoring and assessment operation in support 
of the Department's overall activities.

                        INTERNAL REORGANIZATION

    Question. Where are you in the process of internal reorganization? 
When can we expect to receive notice of the changes you are making?
    Answer. The Emergency Preparedness and Response Directorate has 
been assertively pursuing internal reorganization as an effective means 
of supporting the DHS mission and commitment to the American public as 
well as the President's Management Agenda. Under Secretary Brown has 
met individually with senior leadership/management of the Directorate 
to discuss internal strategic goals, related priorities, and proposed 
restructuring designed to enhance capabilities and effectiveness linked 
directly to the overall DHS mission.
    The Emergency Preparedness and Response Directorate is finalizing 
its realignment plan, which integrates the Federal disaster response, 
recovery, mitigation and preparedness assets. Our main focus during 
this process has centered on taking a careful look at the effectiveness 
of existing programs, the processes necessary to fully integrate 
disaster response programs from other Federal agencies, and meeting the 
President's direction to establish a National Incident Management 
System while maintaining full mission readiness to respond to 
emergencies and disasters regardless of origin.
    We expect to initiate this realignment in the near future, but 
achievement of the full realignment may not realized until later this 
year in order to ensure that we maintain our capabilities during the 
upcoming hurricane season. Pending the official realignment of 
operations within the Directorate, we will be working to affect the 
immediate aligning of personnel to meet mission critical requirements 
and maintain our response readiness capabilities.
    Question. Will the Department seek to change the account structure 
for Emergency Preparedness and Response to reflect this reorganization? 
Would it be beneficial to restructure the accounts?
    Answer. We have no plans to change the appropriation account 
structure beyond what has already been proposed in the fiscal year 2004 
Budget. However, as we realign our organization, we may change the 
budget activity breakdown that is shown within an account for the 
fiscal year 2005 budget request.

                    ASSISTANCE TO FIREFIGHTER GRANTS

    Question. Can you explain why the fiscal year 2004 budget request 
shifts the Assistance to Firefighter Grants program from FEMA to the 
Office for Domestic Preparedness?
    Answer. Financial assistance to States for State and local first 
responder terrorism preparedness is being consolidated through the 
Office for Domestic Preparedness. For years, States and localities have 
asked for a one-stop shop for grants. The proposal to shift grants for 
first responders, including those for firefighters, to ODP will 
accomplish this goal. This shift will also allow these grants to be 
more focused on terrorism preparedness and better integrated with other 
State and local funding priorities. However, key aspects of the current 
program, peer review of competitive funding proposals and direct grants 
to fire departments, will be retained in ODP. The move to ODP will 
enhance program coordination with DHS' first responder programs, which 
is the key goal of the move.
    Question. What concerns do you have regarding this shift in the 
administration of such an important grant program?
    Answer. We believe that ODP will ensure that the program maintains 
its high level of efficiency and cost effectiveness. EP&R looks forward 
to working closely with ODP to make sure that this program will succeed 
in enhancing the terrorism preparedness of our Nation's firefighters.
    Question. What has been the demand for these grants?
    Answer. In its first year (when departments were allowed to submit 
two applications) the program received grant requests from about 18,980 
departments totaling approximately $3 billion. In fiscal year 2002 
(when only one application per department was allowed), the program 
received requests from approximately 19,550 departments totaling $1.9 
billion in Federal dollars. This year, the program received more than 
19,950 requests totaling approximately $2.1 billion. However, it should 
be noted that most major Federal grant programs receive more funding 
requests than they can fund.

                      INTEROPERABLE COMMUNICATIONS

    Question. When can we expect to receive a plan for how the $25 
million for interoperable communications equipment will be allocated? 
Please give us an update on your progress.
    Answer. The implementation of the fiscal year 2003 interoperable 
communications equipment grant program will be coordinated between the 
Department of Homeland Security and the Department of Justice, Office 
of Community Oriented Policing Services (COPS); both departments 
received funding in fiscal year 2003 for interoperable communications 
equipment grants, with the direction to coordinate their efforts. In 
the fiscal year 2003 Consolidated Omnibus Appropriation, EP&R received 
$25 million for this purpose, and COPS received $20 million (out of 
this, $5 million will go to the National Institute of Standards and 
Technology (NIST) and $3 million to the National Institute for 
Justice's AGILE Program).
    We are aware that Congress has expressed interest in providing 
additional funds for interoperability communications as part of the 
Wartime Supplemental. If additional funding is provided, we believe it 
would be advisable to run a single application process for all 2003 
funds. We will work with COPS to provide an allocation plan as soon as 
possible.
    Question. Have you obligated any of the $25 million that was 
appropriated for fiscal year 2003?
    Answer. No. All COPS and EP&R funding for interoperability will be 
awarded through a coordinated process which includes peer review. Grant 
awards will be made in the fourth quarter of the fiscal year. EP&R and 
COPS anticipate that awards will range from $50,000 to $2 million per 
proposal, and expect the funds to be distributed in September.
    Question. How does the agency plan to address this issue in fiscal 
year 2004, since no funding was requested in the Emergency Preparedness 
and Response budget?
    Answer. The funding that will be awarded in fiscal year 2003 
through the coordinated COPS/EP&R effort will provide funding to 
jurisdictions across the Nation for demonstration projects that will 
explore uses of equipment and technologies to increase interoperability 
among the fire service, law enforcement, and emergency medical service 
communities. These demonstration projects will illustrate and encourage 
the acceptance of new technologies and operating methods to assist 
communities in achieving interoperability.
    Once technology is proven and accepted, standards will result that 
will serve as the basis for future communication equipment purchases. 
We anticipate that in future years, all equipment that would be 
purchased by the first responder community would meet the requirements 
of the standard. Funding for this equipment may be provided through the 
$3.247 billion in first responder grants in the Office for Domestic 
Preparedness. Over the last few years, approximately 17 percent of ODP 
grant funds has been used for communications equipment. If this average 
holds true in fiscal year 2004, the result will be a nearly four-fold 
increase in the interoperability funding.
    Question. How will FEMA continue the implementation and operation 
of the systems put in place with the funding provided in fiscal year 
2003 if no funding is provided in fiscal year 2004?
    Answer. While there is a maintenance financial obligation 
associated with all equipment purchases, the Administration believes 
Federal grant funding should be focused on enhancing and improving 
communications, not maintaining current investments. The funding 
available in fiscal year 2003 will be used to demonstrate the 
technologies and operating methods that will best assist communities in 
achieving interoperability. Office for Domestic Preparedness grant 
funds can support additional enhancements, but maintenance of these 
systems is largely a State and local responsibility.
    Question. Does the Department of Homeland Security anticipate 
developing a system that allows other agencies from within the 
Department to access funding for interoperable communications through 
the Office for Domestic Preparedness?
    Answer. The Department of Homeland Security does not anticipate 
developing a system that allows other agencies from within the 
Department to access funding for interoperable communications. The 
purpose of this funding is to allow local governments and first 
responders to demonstrate interoperable communication equipment to help 
DHS benchmark an acceptable standard. Federal agencies' 
interoperability needs should be addressed as part of their ongoing 
equipment acquisition process.

                          MITIGATION DIVISION

    Question. Please give us an update on the implementation of the two 
pre-disaster mitigation grants and flood map modernization.
    Answer. The fiscal year 2003 Omnibus appropriations bill provided 
$149 million to the National Pre-Disaster Mitigation Fund to initiate a 
competitive grant program for pre-disaster mitigation planning and 
projects for State, Tribal, and local governments. Such hazard 
mitigation plans and projects will reduce overall risks to the 
population and structures and, in the long term, will reduce reliance 
on funding from disasters declared by the President.
    As part of the fiscal year 2003 appropriations, EP&R was directed 
to provide grants of $250,000 to each of the 50 States and five other 
recognized entities for hazard mitigation planning, for a total 
allocation of $13.75 million. The Notice of Availability of Funds for 
the planning grants was published on March 3, 2003. Applications are 
due to EP&R by April 30, 2003.
    EP&R currently is putting in final form the fiscal year 2003 
guidance for the competitive Pre-disaster Mitigation (PDM) Grant 
Program, with an emphasis on factors such as cost-effectiveness, 
States' priority ranking, technical feasibility, and consistency with 
other Federal programs.
    EP&R is also finalizing the guidance for the Flood Mitigation 
Assistance (FMA) Program for fiscal year 2003. As in prior years, EP&R 
will award planning, technical assistance, and flood mitigation project 
grants under the FMA program. For fiscal year 2003, we have established 
(as a national priority) mitigating repetitive flood loss properties, 
insured under the National Flood Insurance Program, through the PDM and 
FMA programs.
    EP&R's fiscal year 2003 appropriations included $149 million for 
Flood Map Modernization. In March, program staff met with key 
stakeholders to finalize the approach for the inaugural-year 
implementation. In April, the synopsis for a performance-based 
management contract was published. The implementation strategy for this 
initiative includes an emphasis on partnering with Federal, State, and 
local organizations to accomplish three things: 1. Leverage Federal and 
other public funds; 2. Increase local capability to produce and 
maintain flood and other hazard data; and 3. Facilitate data management 
by those who will benefit most from the information.
    The National Flood Map Modernization strategy will be implemented 
through two approaches. The first approach focuses on highest-risk 
areas, as identified by our State and local partners, immediately 
supporting our goal to reduce losses of life and property. Highest risk 
areas are those with high growth, high population, and a history of 
significant flood losses. We are investigating the feasibility of 
basin-wide studies to take advantage of economies of scale in these 
areas. The second approach involves capitalizing on areas that have 
data that can be quickly and efficiently leveraged into usable flood 
hazard data.
    Question. What has been the response to date for pre-disaster 
mitigation grant applications?
    Answer. The Notice of Availability of Funds (NOFA) for the planning 
grants was published on March 3, 2003. Applications are due to EP&R by 
April 30, 2003.
    EP&R is currently finalizing guidance for the competitive Pre-
disaster Mitigation (PDM) Grant Program and the Flood Mitigation 
Assistance (FMA) Program. Applications for the competitive PDM will be 
due 90 days after the publication of the NOFA, and we expect to begin 
awarding PDM grants in September 2003.
    Since the FMA funding is 2-year funding, applications will be 
accepted from the date of publication of the fiscal year 2003 guidance 
until March 2004. We expect to award FMA grants beginning in July 2003.
    While none of the application periods for the various grants has 
closed, we have received numerous inquiries and expect States to 
actively pursue grants through these programs.
    Question. What are the funding needs to continue these initiatives 
in fiscal year 2004? Is the President's budget request sufficient to 
meet these needs?
    Answer. In fiscal year 2003, Congress provided $20 million for the 
Flood Mitigation Assistance Program (FMA), $149 million for the Pre-
disaster Mitigation (PDM) Grant Program, and reduced the standard 
formula for the Hazard Mitigation Grant Program (HMGP) from 15 percent 
to 7.5 percent. The increase in the PDM program for fiscal year 2003 
offsets the reduction in the HMGP, based on average annual HMGP funding 
levels.
    For fiscal year 2004, the President's budget proposes a level of 
funding similar to that provided in fiscal year 2003, with a total of 
$300 million proposed for the FMA and PDM programs combined. The FMA 
and PDM programs provide a significant opportunity to raise awareness 
of risks, and reduce the Nation's disaster losses through risk 
assessment and mitigation planning. These programs will permit the 
implementation of pre-identified, cost-effective mitigation measures 
before disasters occur. Examples of these measures include establishing 
disaster-resistant building codes, and retrofitting structures to 
protect against wind, seismic, or flood hazards.
    The Administration is requesting $200 million in Flood Map 
Modernization funding for fiscal year 2004. Multi-year funding is 
needed to update the entire national flood map inventory to digital 
format.

                           RESPONSE DIVISION

    Question. Which functions (budgets, personnel, daily operations, 
etc.) of the Domestic Emergency Support Team, the National Disaster 
Medical System and the Nuclear Incident Response Teams transferred from 
the Federal Bureau of Investigation, the Department of Health and Human 
Services and the Department of Energy to the Department of Homeland 
Security (DHS)? What is meant by operational control?
    Answer. The National Disaster Medical System's (NDMS) operations, 
budgets, and authorities have been transferred into the DHS. DHS and 
the Department of Health and Human Services (HHS) have entered into a 
memorandum of understanding that provides the basis for HHS continued 
administrative support for personnel, procurement, finance, and other 
administrative systems until these functions can be moved to DHS or 
beginning in fiscal year 2004, whichever is sooner. HHS continues to 
support the personnel system used for the activation of approximately 
8,000 civilian volunteers. Although the personnel system continues to 
reside within HHS, this has not adversely affected the readiness of the 
NDMS. The NDMS legislative authorities (Public Law 107-188) transferred 
to DHS, and the Under Secretary for Emergency Preparedness and Response 
became the head of NDMS. For NDMS, operational control means managing 
the System on a day-to-day basis, including authority to activate and 
deploy, and to direct and manage response teams when they are deployed 
to an incident. DHS is also responsible for the strategic development 
of the response teams.
    The Domestic Emergency Support Team (DEST) is a multi-agency 
response element. The operational control of the DEST transferred from 
the FBI to DHS on March 1st. While each agency supplies their own 
personnel and equipment to the DEST, DHS has assumed the administrative 
and logistical responsibilities for the team.
    All program management responsibilities for the Nuclear Incident 
Response Teams, including budgeting, staffing, training, equipping, 
strategic planning, and maintenance, remain with the Department of 
Energy. The responsibility for establishing standards, certifying 
accomplishment of those standards, conducting joint and other exercises 
and training, evaluating performance, and providing funding for 
homeland security planning, exercises and training, and equipment is 
now the responsibility of the Department of Homeland Security.
    The emergency response assets of the Department of Energy's 
National Nuclear Security Administration (NNSA) will deploy at the 
direction of the Secretary of Homeland Security, through the Under 
Secretary for EP&R, with the exception of the regional Radiological 
Assistance Program (RAP) teams, which retain the authority to self-
deploy. While deployed, the emergency response assets fall under the 
operational control of the Secretary of Homeland Security for the 
length of the deployment. Operational control is the authoritative 
direction over all aspects of nuclear/radiological operations and 
provides the authority to perform those functions of command and 
control over the response assets involving planning, deploying, 
assigning tasks, designating objectives, and giving authoritative 
direction necessary to accomplish the mission. Operational control 
provides full authority to organize the deployed assets as the 
Secretary of Homeland Security, through the Under Secretary for EP&R, 
or his designee, considers necessary to accomplish assigned missions. 
It does not, in and of itself, include authoritative direction for 
logistics or matters of administration, discipline or internal 
organization. All operational functions will be coordinated through the 
Under Secretary for EP&R or his designee, and will be consistent with 
current Presidential Decision Directives, Executive Orders, and 
interagency contingency plans. All deployed assets will support the 
designated Lead Federal Agency and the On-Scene Commander.
    Question. Will the three teams essentially remain at their current 
departments but receive funding through the Department of Homeland 
Security?
    Answer. The Emergency Preparedness and Response Directorate is 
undertaking the integration of these programs within the overall 
Federal response structure to ensure that these programs are mission 
capable to operate within the National Incident Management System. As 
such, the Department will fund these programs to mission capability 
standards. We will also be looking for ways to achieve cost savings 
during this process. The integration of these teams, as well as the 
capabilities of the Urban Search and Rescue Teams, offers the Federal 
Government the overall capability to meet emergency and disaster 
requirements in a more efficient and effective manner.
    Question. Do you foresee any obstacles in this arrangement to the 
successful operation of these vital systems?
    Answer. The integration of operations, personnel and assets will 
present challenges, but it will also create opportunities for 
enhancement of programs and processes to better meet the needs of our 
clients.
    Question. What will the Emergency Preparedness and Response role be 
with respect to BioShield if enacted into law?
    Answer. The DHS role with respect to BioShield, if enacted, will be 
to: assess current and emerging threats of use of chemical, biological, 
radiological or nuclear agents; to determine which of such agents 
present a material risk of use against the population; and to act as a 
prudent manager of any funds made available through the BioShield 
authority. The Emergency Preparedness and Response role would be to 
ensure the timely inclusion of items procured through Project BioShield 
into the Strategic National Stockpile, and in cooperation with HHS, to 
ensure that Federal and State partners are well equipped to receive and 
distribute allotments of these new countermeasures, as necessary.
    The SNS will be able to maintain and deploy the innovative/new 
medications and vaccines that become available under Project BioShield. 
NDMS medical response teams will be able to utilize any new or 
innovative vaccines and medications in their response to the event.
    Question. Does the Department of Homeland Security have final 
decision making authority over what products go into the stockpile, and 
what products will be dispensed from the stockpile?
    Answer. No. Under the law, the Department of Health and Human 
Services (HHS) is responsible for determining the content and quantity 
of items that go into the SNS. DHS, however, is responsible for working 
with HHS to provide the intelligence assessments of the risks of 
specific threats that the content of the SNS must address. DHS is also 
responsible for funding the SNS, which gives it the fiduciary 
responsibility to ensure that funds spent on additions to the SNS are 
used appropriately. DHS does have final decision making authority over 
the products that the SNS releases.
    The Director of the NDMS will participate in workgroups that 
provide assistance in the development of the formulary for our response 
teams to have the necessary information about the medications and 
vaccines in the SNS in order to provide the most effective response.
    Question. If the Department has the authority, does it have the 
medical expertise to make these decisions?
    Answer. The Department's Strategic National Stockpile, housed in 
the Centers for Disease Control and Prevention (CDC), identifies 
treatment protocols for specific threats and works closely with public 
and private subject matter experts in medicine, emergency response, 
public health and other disciplines to define the most efficacious and 
cost effective items for protecting the American public.
    Subject matter experts within HHS, DHS, DOD and other Federal 
agencies provide expertise in formulary development and oversight. The 
SNS also includes nationally recognized law enforcement, scientific, 
and medical experts from the non-Federal civilian sector to assist with 
the review of the SNS formulary.
    Question. Based on the development maturity and production 
readiness of the needed vaccines and medications in the next 18 months, 
can the Department effectively and efficiently spend such a large 
amount of funds in one fiscal year?
    Answer. If the vaccines and medications are available, we will be 
able to purchase appropriate pharmaceuticals including vaccines, 
antitoxins, and antibody enhancing drugs. However, production 
constraints may result in the delivery of these items over a multi-year 
period.
    Question. How many different vaccines and medications actually will 
be ready for Department of Homeland Security purchase in the next 18 
months, and what is the cost estimate for each?
    Answer. There will be continued procurement of currently produced 
smallpox vaccine (Acambis) and anthrax vaccine (BioPort), as well as 
heptavalent and pentavalent botulinum antitoxin that will be produced 
in the next 6-18 months (Cangene). In addition, two new vaccines are 
expected to be ready for procurement through project BioShield within 
the next 18 months. These include a new-generation anthrax vaccine, as 
well as a new smallpox vaccine. The costs of the new-generation 
vaccines are not yet available, but a working group is meeting 
regularly, and determining costs is one of their top priorities.
    Question. Please provide for the record a detailed statement 
demonstrating for each vaccine and medication its development maturity 
and production readiness and how that status supports obligation of 
specific funding amounts in fiscal year 2004.
    Answer. Initiatives to support the intermediate-scale advanced 
development of rPA and MVA vaccines are planned for late fiscal year 
2003 and early fiscal year 2004 respectively. These initiatives may 
include collection of preclinical and clinical data, such as: 
production and release of consistency lots; formulation, vialing and 
labeling of vaccine; development of animal models in at least two 
species to support the FDA animal rule; process, assay and facility 
validation; and clinical evaluation in initial phase II trials.
    For next-generation recombinant Protective Antigen (rPA) anthrax 
vaccine, two candidate products are in early product development. 
Preclinical data for this vaccine are expected to be submitted between 
July 2003 and September 2004, and clinical data are expected to be 
submitted by March 2004. The estimated date for completion of this 
phase of the rPA vaccine project is June 2004. For next-generation 
Modified Vaccinia Ankara (MVA) smallpox vaccine, two candidate products 
are in early product development. Preclinical data for this vaccine are 
expected to be submitted between July 2003 and September 2004, and 
clinical data are expected to be submitted by June 2004. The estimated 
date for completion of this phase of the MVA vaccine project is 
September 2004.
    Question. Mandatory spending can reduce Congress's oversight and 
visibility into a program and its ability to determine appropriate 
funding levels. Why did the Department seek these funds through 
mandatory spending instead of through annual appropriations?
    Answer. As demonstrated by the support shown by Congress in passing 
the Bioterrorism bill last year, Members have demonstrated their 
support for expediting the progress in acquiring drugs and vaccines to 
protect our citizens from bioattack. The Administration proposes this 
permanent, indefinite authority to allow the government to purchase a 
vaccine or medication as soon as experts agree it is a safe and 
effective means of protecting the American people against a serious 
threat from bioterrorism. This authority will also serve to assure 
potential manufacturers that if they can create a safe and effective 
product needed to counter bioterrorism threats, the government can 
purchase it. The Administration recognizes that this is an 
extraordinary request designed to meet an extraordinary threat, and 
will continue to work with Members and the relevant Committees to 
demonstrate the checks and oversight embedded in this proposal. The 
Administration's intent is to accelerate the production of urgently 
needed countermeasures, not to circumvent Congressional oversight.
    Question. What information can the Department of Homeland Security 
provide the Subcommittee to demonstrate that mandatory spending and not 
annual appropriations is required to effectively accomplish this 
program?
    Answer. It is clear that the pharmaceutical and biologics industry 
need incentives to engage in R&D, testing, and manufacture of 
countermeasures to biological and chemical threat agents. The President 
announced Project BioShield--a comprehensive effort to develop and make 
available modern, effective drugs and vaccines to protect against 
attack by biological and chemical weapons or other dangerous pathogens. 
Specifically related to the question, the proposed legislation for 
Project BioShield will ensure that resources are available to pay for 
``next-generation'' medical countermeasures. The proposed legislation 
creates a permanent indefinite funding authority to spur development of 
medical countermeasures. This authority will enable the government to 
purchase vaccines and other therapies as soon as experts believe that 
they can be made safe and effective, ensuring that the pharmaceutical 
and biologics private sector devotes efforts to developing the 
countermeasures. The Secretary of Homeland Security and the Secretary 
of Health and Human Services will collaborate in identifying critical 
medical countermeasures by evaluating likely threats, new opportunities 
in biomedical research and development, and public health 
considerations. Project BioShield will allow the government to buy 
improved vaccines or drugs for smallpox, anthrax, and botulinum toxin.
    Use of the proposed BioShield authority is currently estimated to 
be $5.6 billion over 10 years. However, under the proposed authority, 
funds would also be available to buy countermeasures to protect against 
other dangerous pathogens, such as Ebola and plague, as soon as 
scientists verify the safety and effectiveness of these products.
    Question. What is the interaction between the Centers for Disease 
Control and the Emergency Preparedness and Response Directorate in the 
investigation of a sudden disease outbreak, such as Severe Acute 
Respiratory Syndrome?
    Answer. EP&R monitors the status that CDC provides as it 
investigates sudden disease outbreaks such as Severe Acute Respiratory 
Syndrome. Should the outbreak threaten to overwhelm the ability of 
State/local government's ability to deal with it, EP&R will deploy the 
SNS and/or rapidly mobilize the support of multiple Federal agencies 
under the Federal Response Plan. EP&R may also activate the National 
Disaster Medical System (NDMS). CDC and EP&R are seeking an even closer 
working relationship to enhance coordination with the SNS via an MOU.
    EP&R personnel participated in a number of teleconferences with CDC 
and HHS during the early stages of the investigation. Involvement from 
the SNS occurs on a daily basis. Additionally, medical personnel from 
the EP&R NDMS section review the daily CDC updates on SARS, and 
interact with personnel from HHS on a regular basis.
    Question. Does this relationship change based upon the 
determination of the origin of a sudden disease outbreak (i.e. 
naturally occurring or terrorist related)?
    Answer. No, the relationship would not change. Generally, HHS is 
the lead Federal department in health emergencies, irrespective of 
whether those emergencies are caused by terrorist attacks, natural 
disasters, outbreaks, or technological accidents. HHS responds through 
its public health agencies and resources, including CDC, the Health 
Resources and Services Administration, and the Food and Drug 
Administration. EP&R would also respond to both naturally occurring and 
terrorist health-related emergencies with the SNS and NDMS. If the 
President were to declare a major disaster or an emergency under the 
Stafford Act, EP&R, as the lead consequence management agency would 
assume overall responsibility for coordinating the Federal response. 
HHS, however, is the Federal lead under the Emergency Support Function 
for health (ESF 8).

                EMERGENCY MANAGEMENT PERFORMANCE GRANTS

    Question. Please explain why funding for Emergency Management 
Performance Grants was not included in the President's fiscal year 2004 
budget request.
    Answer. The Emergency Management Performance Grants are 
consolidated into the President's fiscal year 2004 budget request for 
first responder grants in the Office for Domestic Preparedness. This 
reflects the Administration's belief that State emergency management 
and homeland security planning should be integrated with State-level 
homeland security efforts. Within the $3.6 billion request for ODP, 
approximately $150 million will be allocated to non-personnel costs 
previously covered by EMPG, including State and local strategic 
planning and development of all-hazard operations plans. Personnel 
integral to the administration and planning necessary to build 
sufficient Federal plans and capacity are consistent with meeting 
Federal responsibilities and will be supported. Personnel directly 
meeting the important daily requirements of a State or local government 
are expected to be supported at that level of government.
    Question. Is consolidation of the Emergency Management Performance 
Grants into ODP an indication that this administration is choosing to 
focus more on the homeland security aspects of the new department and 
less on the non-homeland security responsibilities. What is your view 
regarding the Emergency Management Performance Grants?
    Answer. The Emergency Management Performance Grants are being 
consolidated with other grants within Department of Homeland Security 
to provide ``one-stop'' shopping for first responders. While the 
emergency management offices within the States have relied heavily on 
the EMPG grants for years for all hazards capabilities, the fiscal year 
2004 Budget emphasizes that these funds should be focused on enhancing 
current capabilities, not supplanting State personnel costs.
                                 ______
                                 

               Question Submitted by Senator Ted Stevens

                         USE OF ORGANIZED LABOR

    Question. Are efforts being taken by the Department of Homeland 
Security to include organized labor in the planning of emergency 
preparedness and response efforts?
    Answer. The Emergency Response Directorate of the Department of 
Homeland Security is always looking for opportunities to improve 
planning for emergency preparedness and response efforts. EP&R has 
worked closely with various organizations in our emergency preparedness 
and response activities and plans to continue these relationships as 
part of the Department of Homeland Security.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                          DISASTER RELIEF FUND

    Question. Please provide the most recent accounting of balances in 
the disaster relief fund.
    Answer. As of May 23, the unobligated balance in the Disaster 
Relief Fund for non-terrorist related events was $445 million. 
Unallocated funds totaled $281 million. Both of these amounts reflect 
the fact that the President released $250 million in emergency 
contingency funds on May 22, 2003.
    Question. According to the Emergency Preparedness and Response 
budget justifications, there was $3.9 billion in outlays from the 
disaster relief account in 2002, which is, on average, $325 million per 
month. Should OMB make the remaining balance in the contingent 
emergency fund available this year, how much more will the Department 
need to get through fiscal year 2003, assuming an average weather year?
    Answer. Supplemental funds for the Disaster Relief Fund will be 
required. The Administration is reviewing estimates of requirements and 
will notify Congress formally once the requirements are known.

                         SEPTEMBER 11 RESPONSE

    Question. Congress appropriated $8.798 billion to FEMA for response 
to the September 11, 2001 attacks on New York City. Have all of these 
funds been obligated? Please provide an accounting of expenditures.
    Answer. No, $6.4 billion has been obligated as of May 21. Another 
$1 billion for Debris Removal Insurance is pending enabling legislation 
by the New York State legislature to allow the City of New York to 
create a captive insurance company or other appropriate insurance 
mechanism to allow for claims arising from debris removal. In addition, 
$90 million for Ground Zero Health Responders Health Monitoring is 
pending completion of an Interagency Agreement with the Centers for 
Disease Control and Prevention. The remaining $1.3 billion is reserved 
for ongoing Human Services, Hazard Mitigation, and Public Assistance 
Programs. In accordance with the Consolidated Appropriations 
Resolution, 2003, remaining funds may be used for non-Stafford Act 
costs by New York City and New York State ``associated with'' the 9/11 
attacks. At this time, it appears that between $750 million and $1 
billion of the $1.3 billion not yet obligated or earmarked will be 
available for this purpose.
    Question. There is currently $1,024,785 left in EP&R's September 11 
response account. How will these funds be spent? Are these the funds 
that can be used for non-Stafford Act funding? If not, describe the 
estimates and plans for use of non-Stafford Act funds.
    Answer. Currently, EP&R estimates that there will be between $750 
million and $1 billion available for non-Stafford Act projects 
``associated with'' the 9/11 event. The final amount will not be known 
until EP&R, New York State, and New York City complete the expedited 
close-out process by the end of June 2003. Both New York City and New 
York State have submitted lists of non-Stafford Act projects for 
funding consideration, and EP&R is drafting Project Worksheets for all 
of the projects requested, with the understanding that actual grant 
awards will only be made up to the amount of funding available.
    Question. Within the $8.798 billion appropriated to FEMA, $2.75 was 
for repair to transportation systems. How many funds total are 
available for transportation system repair in New York, i.e. Department 
of Transportation, Metropolitan Transit Association, PATH? Of the EP&R 
amount, how much has been expended? Please detail past expenditures and 
any known plans for remaining funds. What is the current estimate for 
projects that New York is pursuing for transportation infrastructure 
damaged on September 11?
    Answer. The primary funding amounts available for transportation 
system restoration in Lower Manhattan include: EP&R ($2.75 billion), 
Federal Transit Administration (FTA) ($1.8 billion), Metropolitan 
Transportation Authority (MTA) (up to $1.5 billion--insurance), Port 
Authority (up to $1.5 billion--insurance). In addition, there are 
indications that the Lower Manhattan Development Corporation may commit 
a portion of the remaining  $1 billion of the Department of Housing 
and Development's (HUD) Community Development Block Grant (CDBG) funds 
for transportation system improvements. None of the EP&R funds has been 
expended to date. EP&R has transferred its $2.75 billion to FTA through 
an Interagency Agreement, and FTA is currently working with the MTA and 
Port Authority to develop grant agreements for the initial projects. 
There is no single definitive estimate for New York transportation 
improvements for damaged infrastructure related to 9/11. The core 
projects, i.e., PATH station, new MTA terminal, Pedestrian Concourse, 
Highway 9A, South Ferry Station, and Port Authority Bus Terminal, are 
estimated to cost nearly $5 billion. Additional projects being 
contemplated to provide a direct rail connection between Lower 
Manhattan and the Long Island Railroad, JFK International Airport, and 
Newark Liberty International Airport may cost several billion dollars 
more depending upon the final alternative's selected.
    Question. Of the $8.798 billion appropriated for post September 11 
FEMA activities in New York, $100 million was made available for the 
individual assistance program for new air filtration systems. Please 
provide the committee with a status report in light of reports that the 
program was being used fraudulently by some individuals. What steps has 
EP&R taken to ensure that the program is being used properly? How many 
people have dropped out of the program? How many funds have been 
returned? How will EP&R administer remaining funds?
    Answer. To date, nearly $100 million of Federal funding has been 
obligated to fund the New York State-administered Individual and Family 
Grant program with grants going to more than 110,000 families. Although 
program implementation is the responsibility of New York State, EP&R 
has instituted an aggressive media outreach and home inspection program 
to reduce fraud. As a result, approximately 101,000 applicants (45 
percent) have withdrawn from the program. The amount of funds returned 
to date is approximately $1.5 million; however, this figure includes 
returns due to incorrect addresses and postal errors, which cannot be 
easily separated out from funds returned by applicants. In addition, 
this amount represents only voluntary returns to date. New York State 
and EP&R are just beginning a comprehensive recoupment process to 
recapture funds not expended in accordance with programmatic 
guidelines. The $100 million is a program estimate, and it appears that 
all of the funds will be expended by the time that New York State 
completes grant processing; however, if there are funds remaining at 
the end of the program, the balance will be reallocated to be used for 
other eligible purposes.

                       BIODEFENSE COUNTERMEASURES

    Question. The Department requests $890 million for permanent 
indefinite authority for biodefense countermeasures. EP&R budget 
justifications indicate that the government will be able to ``pre-
purchase critically needed vaccines or medication for biodefense as 
soon as experts agree the vaccines and mediations are safe and 
effective enough to place in the SNS.'' Who are these ``experts''? And 
what is the process by which drugs will be tested for safety and 
effectiveness prior to being placed in the SNS? How will EP&R 
coordinate its activities with the Center for Disease Control?
    Answer. The experts referenced in the budget justification include 
researchers, scientists and doctors at the National Institutes of 
Health (NIH), who would have the flexibility to seek outside expertise, 
make special purchases, and face other management challenges that can 
be barriers to quick progress in converting basic scientific 
discoveries into usable products.
    Furthermore, the Department's Strategic National Stockpile Program, 
operated in coordination with the Centers for Disease Control and 
Prevention (CDC), utilizes clinically accepted treatment protocols for 
specific threats and works closely with public and private subject 
matter experts in medicine, emergency response, public health, and 
other disciplines to define the most efficacious and cost effective 
items for protecting the American public.
    Subject matter experts within the Departments of Health and Human 
Services (HHS), Homeland Security (DHS), and Defense (DOD), as well as 
in other Federal agencies, are routinely requested to provide expertise 
in formulary development and modifications to a variety of threat 
agents. The SNS Program also utilizes scientific and medical subject 
matter experts from the non-Federal civilian sector to assist with the 
review of the SNS formulary.
    HHS is responsible for determining the content and quantity of 
items that go into the SNS. DHS is responsible for working with HHS to 
provide the intelligence assessments of the risks of specific threats 
that the content of the SNS must address. DHS is also responsible for 
funding the SNS and making final decisions over the products that the 
SNS releases.
    Use of a drug prior to licensure--a so-called Investigational New 
Drug--has many safeguards built into it, including informed consent and 
extensive follow-up monitoring. These are important provisions, but in 
a crisis, they could prevent the drug from being made available in a 
timely fashion to all the citizens who need it.
    The emergency use authority is very narrowly focused and targeted: 
only drugs under the direct control of the U.S. government could be 
used, and only after certain certifications had been made. All use 
would be voluntary. This emergency authority provides:
  --The Director of the National Institute of Allergy and Infectious 
        Diseases with the increased authority and flexibility to award 
        contracts and grants for research and development of medical 
        countermeasures. Funding awards would remain subject to 
        rigorous scientific peer review, but expedited peer review 
        procedures could be used when appropriate.
  --A finding by the Secretary of Health and Human Services, based on 
        expert analysis by the Food and Drug Administration (FDA), that 
        the treatment in question was expected to have benefits in the 
        emergency situation that outweighed its expected risks.
  --Greater flexibility in the FDA review process to meet the 
        circumstances of specific terrorist threats. Unlike typical 
        medical product approvals, the authority may be limited to 
        particular types of medical providers, patients and conditions 
        of use.
  --A limited time period. It would remain in effect no more than 1 
        year, unless the specific terrorist threat justifies extension 
        of the authorization, and the available evidence indicates that 
        the countermeasure is providing important expected benefits.

                              CERRO GRANDE

    Question. Please provide obligations and expenditures to date for 
Cerro Grande fires. How many claims have been received to date? How 
much has been requested in those claims? What are your best cost 
estimates of future need?
    Answer. To date, EP&R has approved $437,150,000 in response to 
claims from the Cerro Grande fires and has expended $437,000,000. 
21,512 claims for assistance have been received, 4,561 of which are 
subrogation claims that have been filed by insurance companies and 
those represent approximately $105,000,000. From the funds previously 
made available by Congress, EP&R also paid eligible mitigation claims 
to deter and prevent any future fire damage to property in the Los 
Alamos area. According to FEMA's fiscal year 2002 financial statements, 
audited by the Office of the Inspector General, the unfunded claim 
liability for Cerro Grande totaled approximately $127,000,000. 
Subsequent to the end of fiscal year 2002, the fiscal year 2003 
Consolidated Appropriations Resolution provided an additional 
$89,415,000, leaving a shortfall of approximately $36,000,000.

                       EMERGENCY FOOD AND SHELTER

    Question. How many staff administer the Emergency Food and Shelter 
program? From when an appropriation bill is signed into law, how long, 
on average, has it taken FEMA to get Emergency Food and Shelter program 
funds to the National Board?
    Answer. The appropriation for the Emergency Food and Shelter 
Program does not provide for FTE. Staff administers the program as 
collateral duties. The law requires that once appropriated funds have 
been received by EP&R, they must be distributed to the National Board 
within 30 days. On average, EP&R has provided the funds to the National 
Board within 20 days of receipt of funding. HUD can meet the same 
programmatic requirements, so the transfer of EFS to HUD will not 
disrupt those operations.

                            U.S FIRE SERVICE

    Question. What steps is the Department taking to respond to 
findings in the National Fire Protection Association and FEMA's report 
``A Needs Assessment of the U.S. Fire Service?''
    Answer. The findings of the December 2002 report, A Needs 
Assessment of the U.S. Fire Service, are used to help guide United 
States Fire Administration (USFA) program planning and funding 
decision-making. However, these findings are regarded as advisory, and 
not as formal Administration policy.
    The following recent USFA initiatives specifically address issues 
identified in the assessment:
  --The Assistance to Firefighters Grant Program has distributed funds 
        targeted to firefighter operations, safety initiatives, new 
        vehicle purchases, EMS training and equipment, and fire 
        prevention programs.
  --A Memorandum of Understanding has been signed to create Incident 
        Management Teams in large metropolitan areas for large-scale 
        emergencies and to ensure that highly qualified personnel are 
        available for response throughout the Nation.
  --Training at the National Emergency Training Center for fire and 
        emergency management personnel has been expanded to address new 
        developments and challenges in planning, response, and recovery 
        from emergencies of all types and scope.

                        PRE-DISASTER MITIGATION

    Question. In fiscal year 2003 Congress appropriated $149,025,000 to 
the Nation Pre-Disaster Mitigation Fund. Congress directed that each of 
the 50 States received grants of $250,000 for planning pre-disaster 
mitigation projects. The fiscal year 2004 budget proposed that these 
grants be made competitively. Why does the Administration request this 
change?
    Answer. For fiscal year 2004, the President's budget proposed a 
level of funding similar to that provided in fiscal year 2003, with a 
total of $300 million proposed for the Flood Mitigation Assistance 
(FMA) and Pre-Disaster Mitigation (PDM) program combined.
    Awarding grants on a competitive basis will ensure that the most 
worthwhile, cost-beneficial projects receive funding, such as, but not 
limited to, those containing properties insured under the National 
Flood Insurance Program that have suffered repeated losses and for 
which multiple claims have been paid. With the significant source of 
pre-disaster mitigation funding now available, we have an opportunity 
to implement a sustained pre-disaster mitigation program to reduce 
overall risks to the population and structures, while reducing reliance 
on funding from actual disaster declarations. Furthermore, the analysis 
required for a competitive process will raise awareness of risks and 
reduce the Nation's disaster losses through risk assessment and 
mitigation planning, and the implementation of planned, pre-identified, 
cost-effective mitigation measures that are designed to reduce 
injuries, loss of life, and damage and destruction of property from all 
hazards, including damage to critical services and facilities.
    The fiscal year 2004 budget reflects a total shift to pre-disaster 
preparation and mitigation, with funds that are dedicated to pre-
disaster mitigation, operating independently of the Disaster Relief 
programs, assuring that funding remains stable from year to year and, 
therefore, not subject to reliance on funding from actual disaster 
declarations.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

                    OFFICE FOR DOMESTIC PREPAREDNESS

    Question. How was it decided that the Office of Domestic 
Preparedness (ODP) would be placed in the Borders and Transportation 
Directorate and not in Emergency Preparedness and Response Directorate? 
Does this move create a split between preparedness for terrorism events 
and other types of disasters and emergencies?
    Answer. The President's plan for the creation of the Department of 
Homeland Security placed the Office for Domestic Preparedness (ODP) 
with the Emergency Preparedness and Response Directorate. However, 
prior to passing the Department of Homeland Security Act, Congress 
changed the location of ODP to the Borders and Transportation Security 
Directorate.
    Question. How will the transfer of FEMA's Office of National 
Preparedness to ODP affect FEMA's preparedness mission and programs?
    Answer. The staff and terrorism-related functions of the Office of 
National Preparedness (ONP) have been consolidated into the Office for 
Domestic Preparedness, consistent with the intent of the Homeland 
Security Act. Consistent with a reorganization proposed by the Under 
Secretary, those ``all-hazards'' activities formerly associated with 
ONP will be transferred to a newly created Preparedness Division within 
EP&R.

                           2004 FUNDING LEVEL

    Question. FEMA funding for fiscal year 2004 appears on the surface 
to be greatly increased in this budget, but a closer look shows that 
most of that funding goes to Bioshield and a few specific programs. 
Given that fact, how will FEMA cope with its new responsibilities when 
it will only be receiving level funding for traditional programs?
    Answer. Funding was transferred to EP&R for its new 
responsibilities. In addition, some of FEMA's functions and resources 
related to first responders were transferred to other organizations 
with the Department of Homeland Security.

                       ASSISTANCE TO FIREFIGHTERS

    Question. In the fiscal year 2004 budget request the President 
proposes that the Assistance to Firefighters grant program be 
transferred to ODP and away from the U.S. Fire Administration, which 
has managed it to date. What was the policy reason behind this 
proposal?
    Answer. Financial assistance for State and local first responder 
terrorism preparedness is being consolidated through the Office for 
Domestic Preparedness. For years, States and localities have asked for 
a one-stop shop for grants. The proposal to shift grants for first 
responders, including those for firefighters, to ODP will accomplish 
this goal. This shift will also allow these grants to be more focused 
on terrorism preparedness and better integrated with other State and 
local funding priorities. However, key aspects of the current program, 
peer review of competitive funding proposals and direct grants to fire 
departments, will be retained. The move to ODP will enhance program 
coordination with DHS' first responder programs, which is the key goal 
of the move.

                          SUBCOMMITTEE RECESS

    Senator Cochran. Well, Mr. Brown, thank you very much. You 
have been an excellent and cooperative witness. We appreciate 
it very much. We wish you well as you carry out your duties as 
Under Secretary of this directorate.
    Our next hearing is going to be on Thursday at 2 o'clock in 
room 192 of the Dirksen Senate Office Building. Our witness at 
that time will be the Department of Homeland Security's Under 
Secretary for Science and Technology, Dr. Charles McQueary.
    Until then, the subcommittee stands in recess.
    [Whereupon, at 3:29 p.m., Tuesday, April 8, the 
subcommittee was recessed, to reconvene at 2 p.m. Thursday, 
April 10.]

</pre></body></html>
